<html>
<title> - CHILD NUTRITION AND THE SCHOOL SETTING</title>
<body><pre>[Senate Hearing 110-41]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 110-41
 
                 CHILD NUTRITION AND THE SCHOOL SETTING
=======================================================================



                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION


                               __________

                             MARCH 6, 2007

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov




                      U.S. GOVERNMENT PRINTING OFFICE
35-041 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 



           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY


                       TOM HARKIN, Iowa, Chairman

PATRICK J. LEAHY, Vermont            SAXBY CHAMBLISS, Georgia
KENT CONRAD, North Dakota            RICHARD G. LUGAR, Indiana
MAX BAUCUS, Montana                  THAD COCHRAN, Mississippi
BLANCHE L. LINCOLN, Arkansas         MITCH McCONNELL, Kentucky
DEBBIE A. STABENOW, Michigan         PAT ROBERTS, Kansas
E. BENJAMIN NELSON, Nebraska         LINDSEY GRAHAM, South Carolina
KEN SALAZAR, Colorado                NORM COLEMAN, Minnesota
SHERROD BROWN, Ohio                  MICHEAL D. CRAPO, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota             CHARLES E. GRASSLEY, Iowa

                Mark Halverson, Majority Staff Director

                      Robert E. Sturm, Chief Clerk

            Martha Scott Poindexter, Minority Staff Director

                Vernie Hubert, Minority General Counsel

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Child Nutrition and the School Setting...........................     1

                              ----------                              

                         Tuesday, March 6, 2007
                    STATEMENTS PRESENTED BY SENATORS

Harkin, Hon. Tom, a U.S. Senator from Iowa, Chairman, Committee 
  on Agriculture, Nutrition and Forestry.........................     1
Casey, Hon. Robert P., Jr., a U.S. Senator from Pennsylvania.....     4
Chambliss, Hon. Saxby, a U.S. Senator from Georgia...............     5
Lugar, Hon. Richard G., a U.S. Senator from Indiana..............     3
Salazar, Hon. Ken, a U.S. Senator from Colorado..................     3

                                Panel I

Brownell, Kelly, Founder and Director, Rudd Center for Food 
  Policy and Obesity, Yale University, New Haven, Connecticut....    14
Hennrich, Mary Lou, Executive Director, Community Health 
  Partnership, Portland, Oregon..................................    11
Nece, Teresa, Director, Food and Nutrition, Des Moines Public 
  Schools, Des Moines, Iowa......................................     7
Neely, Susan K., President and Chief Executive Officer, American 
  Beverage Association, Washington, DC...........................     9
Thornton, Janey, Child Nutrition Director, Hardin County School 
  District, Elizabethtown, Kentucky..............................     6
                              ----------                              

                                APPENDIX

Prepared Statements:
    Cochran, Hon. Thad...........................................    50
    McConnell, Hon. Mitch........................................    52
    Stabenow, Hon. Debbie........................................    54
    Brownell, Kelly..............................................    56
    Hennrich, Mary Lou...........................................    64
    Nece, Teresa.................................................    68
    Neely, Susan K...............................................    72
    Thornton, Janey..............................................    78
Document(s) Submitted for the Record:
    Engine Manufacturers Association, prepared statement.........    94
    Society for Nutrition Education, prepared statement..........    96
    Support of the School Nutrition Association from various 
      organizations, prepared statements.........................   100



                 CHILD NUTRITION AND THE SCHOOL SETTING

                              ----------                              


                         Tuesday, March 6, 2007

                                       U.S. Senate,
                                  Committee on Agriculture,
                                   Nutrition, and Forestry,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 9:30 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Tom Harkin, 
Chairman of the Committee, presiding.
    Present: Senators Harkin, Lincoln, Stabenow, Salazar, 
Casey, Klobuchar, Chambliss, Lugar, Coleman, and Thune.

    STATEMENT OF HON. TOM HARKIN, A U.S. SENATOR FROM IOWA, 
   CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION AND FORESTRY

    Chairman Harkin. The Senate Committee on Agriculture, 
Nutrition, and Forestry will come to order.
    First of all, I want to welcome everyone to the Senate 
Committee on Agriculture, Nutrition, and Forestry's hearing on 
child nutrition within the school setting. First let me begin 
by welcoming all of our witnesses who are here today, thanking 
them for their contributions to the health and well-being of 
our kids in school.
    Let me also welcome all of the School Nutrition Association 
delegates who are here today. This is now an annualized 
meeting, and it is always great to see all of you here and to 
welcome you here to Washington. Again we have a big Iowa 
delegation, I am proud to say, and I am certain Indiana is well 
represented also, Senator Lugar.
    Today we will hear about the progress made and about areas 
where more can be done, and specifically about the role that 
this Committee can play in improving children's diets. The farm 
bill reauthorization this year provides us with an opportunity 
to make further progress on these issues, and I look forward to 
working with my colleagues on this year.
    The hearing occurs at a critical moment for our Nation's 
children. Over the past 30 years, in large part because of 
Federal nutrition programs, we have made remarkable strides in 
ending hunger in the United States. In recent years, thanks to 
the efforts of school nutrition personnel, those of you in this 
room, the nutritional quality of school means has also 
improved. But now we have a new set of health risks associated 
with diet which have grown rapidly in recent years with serious 
consequences for our children.
    Unhealthy weight, even obesity, among children has 
increased dramatically. Diet-related type II diabetes has 
reached levels never thought possible, with some estimating 
that one in three children born today will develop the disease. 
Added sugar and fat consumption generally is on the rise among 
children, representing half of daily caloric intake among 
school-aged kids. I might also add that too much salt is being 
put in all of the foods that all of our kids consume.
    I would like to make it clear that when I talk about diet-
related health problems, I am not trying to demonize any 
particular food. All of us here enjoy the occasional sugary 
snack. Myself, I prefer Dairy Queen, but that is just my own 
predilection.
    [Laughter.]
    Chairman Harkin. The real issue here is maintaining the 
proper balance in our diets. In recent decades, there have been 
significant changes in the diets of most Americans, especially 
kids. Since the last 1970's, the percentage of daily calories 
that kids get from sweetened beverages has doubled--doubled--
from less than 5 percent to more than 10 percent, according to 
the American Journal of Preventative Medicine. Foods that once 
were considered a treat are now consumed daily, even multiple 
times daily, by many of our kids. According to USDA's Food and 
Nutrition Service, 52 percent of teenage males and 32 percent 
of teenage females consume three or more soft drink servings 
each day.
    Even as the quality of federally reimbursed meals, as I 
mentioned earlier, has improved, foods of little nutritional 
value--candy, chips, sweetened beverages--have become 
increasingly available and consumed in most schools where kids 
spend, of course, the majority of their day.
    Now, some schools and some States have taken action to 
address these challenges, and I compliment them. But many more 
have not. And the Federal Government I think has done little, 
and far too little--again, I think, in my opinion--to set basic 
nutrition standards for foods that are sold in our schools. I 
mean all foods. Without such guidelines, millions of American 
children fail to receive optimal nutrition at school, and the 
$10 billion that our taxpayers spend every year in school meal 
reimbursements is undermined by these foods of little 
nutritional value available in school settings.
    Today I am happy to announce that again Senator Murkowski 
and I will be reintroducing today the Child Nutrition Promotion 
and School Lunch Protection Act of 2007. It was called 2006 
last year. I just want to thank all of the people who are here 
and the School Nutrition Association for their strong support 
of this legislation to set national guidelines--national 
guidelines--and to give the Secretary of Agriculture the 
authority to set those guidelines for all foods in all schools 
that receive reimbursements for School Breakfast or School 
Lunch Programs. So I just wanted to mention that, that we will 
be reintroducing that legislation today. I hope that we can 
once again have the support of the School Nutrition Association 
and hopefully that with the farm bill up this year, perhaps we 
can see some more determined action on that front this year.
    With that, I would turn to my good friend and also a great 
supporter of good health, Dick Lugar, Senator Lugar from 
Indiana.

STATEMENT OF HON. RICHARD G. LUGAR, A U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman. I 
had not anticipated making an opening statement, but let me 
just say that this is always a rally of the faithful. And I 
would say that Tom Harkin is absolutely right that it is a time 
in which those who have fostered school lunches and school 
breakfasts for children all over our country, rejoice, we have 
preserved that thought that these meals ought to be available 
to all of our children, regardless of which State or county or 
locale they happen to be in. And this group is largely 
responsible for maintaining that and maintaining support for 
Senators who have supported that.
    I agree also that it is extremely important that we tackle 
once again the vending machine problem and the child obesity 
problem. The Chairman has phrased this in more artful language, 
but these are issues that come before us perennially, and 
clearly there is now, I think, movement to understand the 
dilemmas that come to school administrations that wrestle with 
these problems, as well as with nutritionists, and, finally, of 
course, our children. Of course, we could set better examples 
as parents and adults with regard to the obesity issue, in 
addition to working with the child issue, but it is so 
important there. The data is incontrovertible. And I rejoice in 
this hearing and the chance to hear from distinguished 
witnesses, and hopefully we will have a chance to visit with 
you.
    Thank you.
    Chairman Harkin. Thank you, Senator Lugar.
    I would just mention that Senator Chambliss was here. He 
has to go over to a meeting of the Armed Social Security 
Committee. He will be right back, and I will keep the record 
open for his opening statement.
    Just for short statements, I would yield now to Senator 
Salazar from Colorado.

  STATEMENT OF HON. KEN SALAZAR, A U.S. SENATOR FROM COLORADO

    Senator Salazar. Thank you very much, Chairman Harkin. I 
very much appreciate you holding this hearing. Just two very 
quick points.
    First, I applaud the Chairman and all of you who have been 
advocates of the Fresh Fruit and Vegetable Program. I think the 
fact that was included in the 2002 farm bill was a very 
important step forward. I know it operates in some six or seven 
States now, and I hope that one of the things that we can do is 
to find ways of expanding that to more States, including my 
State, which currently does not participate in it.
    Second of all, I think when we look at these nutrition 
programs, what we really are talking about is having our 
children across this country being in a position where they can 
learn. I always wonder when I go to schools how is it that a 
young person can be in a classroom in an environment that is 
supposed to be a learning environment, but they have not had a 
breakfast or they have not had a lunch and they are 
malnutritioned. So it very much ties into the whole concept of 
competitiveness and having a great educational system and 
improving upon our educational system here.
    I was briefly looking at the numbers for us in Colorado, 
Mr. Chairman, and I noted that in Colorado we have over 1,000 
Colorado schools with 72,000 students getting a breakfast from 
our program. We have 1,600 schools and 330,000 students that 
participate in the lunch programs that are provided out of the 
programs that have been created by this Congress. And so it has 
a huge impact on what we do in my State, and I know that is 
true for each of our States across this country.
    So thank you so much for putting a spotlight on this issue.
    Chairman Harkin. Thank you, Senator Salazar.
    Again, a new member of our Committee, and we welcome him 
because he is also a good proponent of preventative medicine 
and good health, and that is Senator Casey from Pennsylvania.

  STATEMENT OF HON. ROBERT P. CASEY, JR., A U.S. SENATOR FROM 
                          PENNSYLVANIA

    Senator Casey. Mr. Chairman, thank you very much for having 
this hearing, and I want to thank the witnesses and the 
advocates who are in the room.
    There are few issues that this Congress will deal with that 
have more importance, I think, for the families involved and 
the children involved than the issues that we are going to be 
talking about today. Very few issues have as much impact on 
those families and our economy, frankly, now and in the future 
than these issues. And I want to thank all of you for the work 
that you do, the important work that you do, to make sure that 
our children are receiving the nutrition they need. And I think 
it is very important for this Congress to focus on these 
programs.
    I know in my State of Pennsylvania we have just over a 
million people--a million children, I should say, that 
participate in the School Lunch Program. We have got a lot less 
in school breakfast. That is a problem. We have got to correct 
that. About a quarter of a million in school breakfast. So this 
issue is critically important to the families in Pennsylvania, 
but I know across the country.
    I know that in our State the Fruit and Vegetable Snack 
Program has been a great program, but not enough schools are 
participating. We have got to expand that for our State and 
other States around the country.
    But I really believe this is an issue for the future of 
America, for our kids, as everyone here in this room knows, to 
have the nutrition that they need in the dawn of their lives 
and they get a healthy start. They are going to be better 
educated and much better prepared to meet the challenges of 
their educational career, but also the world of work and the 
economy that they can build.
    So, Mr. Chairman, I think this hearing is as much about the 
future and our economic future as it is about the children who 
will benefit, and we are honored to be a part of it.
    Chairman Harkin. Thank you very much, Senator Casey.
    Now I will turn to our distinguished Ranking Member, 
Senator Chambliss.

 STATEMENT OF HON. SAXBY CHAMBLISS, A U.S. SENATOR FROM GEORGIA

    Senator Chambliss. Thank you very much, Mr. Chairman, and I 
am very appreciative of you holding this hearing today and the 
bipartisan approach we have taken on nutrition in the past. And 
I know as we craft the farm bill this year, we are going to 
work very close together to make sure the nutrition title is 
exactly the way it should be.
    I welcome all of our visitors here today as we discuss the 
child nutrition programs in the school setting, and I 
particularly want to welcome all of my good friends from 
Georgia who are up today to observe this hearing.
    Good nutrition is not only important for good health, but 
also for proper cognitive development in our children. Our 
school nutrition programs are a key component in our effort to 
provide healthy, nutritious meals to our Nation's school 
children. According to the U.S. Department of Agriculture, 
which administers these programs, nearly 85 million school 
breakfasts and over 210 million school lunches were served in 
Georgia during fiscal year 2006. For too many of our children, 
the school nutrition programs are the healthiest, most balanced 
meals of their entire day, so thank goodness we have got great 
nutrition folks in our schools that are helping look after 
these children.
    We appreciate the efforts of our school nutrition 
professionals, many of whom are visiting today, for the job 
they perform to ensure that our young people have a healthy 
start on life. I know from the school teachers in my family of 
the importance of good nutrition in our schools, especially for 
our children's development. Moreover, the food for our school 
meals programs come from U.S. farmers, which obviously helps 
agriculture. School nutrition programs are good for families, 
good for farmers, and good for the future of America.
    Nutrition programs have been and continue to be an 
important part of the farm bill. Although the Committee will be 
facing budgetary pressures from all interested parties when 
writing this farm bill, Mr. Chairman, I look forward to working 
together to address the nutritional issues which are critical 
to the well-being of our Nation's children.
    Thank you, Mr. Chairman, and I look forward to our 
witnesses' testimony today.
    Chairman Harkin. Thank you, Senator Chambliss. And we have 
a great panel here today that covers, I think, the whole scope 
of what we are talking about here.
    We have Ms. Janey Thornton, Child Nutrition Director from 
Hardin County School District in Elizabethtown, Kentucky; Ms. 
Teresa Nece, Director of Food and Nutrition at Des Moines 
Public Schools, Des Moines, Iowa, who I hope is going to speak 
about the Fruit and Vegetable Program that Senator Salazar 
mentioned; Ms. Susan Neely, President and CEO of the American 
Beverage Association here in Washington; Ms. Mary Lou Hennrich, 
the Executive Director of the Community Health Partnership in 
Portland, Oregon; and Mr. Kelly Brownell, Founder and Director 
of the Rudd Center for Food Policy and Obesity at Yale 
University in New Haven, Connecticut, who has met with us 
before and has been a witness before us in the past, and is one 
of the really guiding lights in terms of nutrition in the 
United States of America.
    We thank you all for being here, and we will ask you each--
I will just say that all of your statements will be made a part 
of the record in their entirety. What I would like you to do is 
if you could just sum up your points within 5 minutes each. We 
will go down the line in the order in which I introduced you, 
and then we will open it for questions and answers with the 
Senators.
    So, first, I would turn to Ms. Janey Thornton.

 STATEMENT OF JANEY THORNTON, CHILD NUTRITION DIRECTOR, HARDIN 
        COUNTY SCHOOL DISTRICT, ELIZABETHTOWN, KENTUCKY

    Ms. Thornton. Chairman Harkin, Senator Chambliss, members 
of the Committee, thank you very, very much for this hearing on 
child nutrition and for continuing the unique tradition of 
hosting this hearing during our legislative annual conference. 
I am Janey Thornton, President of the School Nutrition 
Association, from Hardin County, Kentucky.
    Mr. Chairman, I am pleased to report this morning that, if 
our membership and our Industry Advisory Board are any judge, 
support for your legislation is increasing. SNA believes 
strongly that the Secretary of Agriculture should have the 
authority to regulate the sale of food and beverages throughout 
the entire school day and throughout the entire school. We 
cannot have one set of a la carte standards in the cafeteria 
and then another set of standards or no standards down the 
hall.
    We need consistent standards in the school for two reasons: 
to promote wellness, but also to send a consistent nutrition 
message to our students. As every parent knows, if we tell our 
children one thing but they see us doing something else, they 
are going to follow our actions and ignore our words. Schools 
must also practice what they preach, and with the foods we sell 
and the nutrition education that we are teaching. Therefore, we 
hope Congress will move forward with this important 
legislation.
    If the Congress is going to move forward in this area, 
however, it is our hope and our suggestion that nutrition 
guidelines within the cafeteria also be standardized. Current 
law requires that meals served be consistent with the Dietary 
Guidelines for Americans. However, in recent years, many States 
and even some local districts have come to interpret those 
dietary guidelines differently.
    The ever increasing range of nutrition standards is 
creating a significant problem for our schools as well as for 
our industry sponsors. The variety and disparity of standards 
throughout the country are forcing an increase in our food 
cost, which we cannot accommodate given our current Federal 
reimbursement.
    Mr. Chairman, whatever nutrition a child needs in Iowa are 
the same nutritional standards that a child needs in Georgia or 
in Kentucky or in any other State.
    As we focus on improving the quality of school meals, we 
must not forget about those low-income students who qualify for 
the program but cannot afford to participate. I am referring, 
of course, to the reduced-price school meals. Students from 
families with incomes between 130 and 185 percent of the 
poverty level are charged a maximum of 40 cents for lunch and 
30 cents for breakfast. While that may not sound like a lot of 
money, it is keeping students out of the program. SNA firmly 
believes that if a family qualifies for free WIC benefits, they 
should also qualify for free meals.
    Every day our SNA members are confronted with children who 
cannot afford that fee. Sometimes our members actually reach 
into their own pockets to pay the fee. Some schools might hold 
up that report card until the fees are paid. This is a real 
problem. There are families in America who cannot afford the 40 
cents per child for a nutritious school lunch and 30 cents for 
breakfast.
    With my district being adjacent to Fort Knox, I hear almost 
weekly from many of our military families about this very 
concern. We are not here today urging Congress to expand the 
free meal program and eliminate the reduced-price program. We 
are just urging Congress to finally fund the reduced-price 
pilot program to determine once and for all whether it is the 
fee as opposed to some other variable that might be keeping 
those low-income children from the program. According to USDA, 
a valid test can be implemented for approximately $23 million 
over a 3-year period.
    Finally, as we celebrate National School Breakfast Week, we 
are asking the Committee to provide USDA commodities for the 
School Breakfast Program. As you know, USDA currently provides 
approximately 18 cents in commodities for each lunch served to 
almost 30 million children in the program. By comparison, no 
commodity support is provided to the School Breakfast Program 
and the 9 million children who participate, even though, as you 
have mentioned, all available research indicates that this is 
the most important meal of the day. School breakfast commodity 
support would help us expand this program and would at the same 
time support American agriculture. We are suggesting that 10 
cents per meal be provided in USDA commodities for each 
breakfast served.
    Mr. Chairman, members of the Committee, that concludes our 
formal statement. We will be most pleased to answer any 
questions you may have, and we certainly thank you again for 
this opportunity to address you today. Thanks.
    [The prepared statement of Ms. Thornton can be found on 
page 78 in the appendix.]
    Chairman Harkin. Madam President, thank you very much for a 
great statement, and thanks for your great leadership of this 
organization.
    Ms. Thornton. Thank you.
    Chairman Harkin. Now we will turn to Teresa Nece, a long-
time friend of mine, from Des Moines. Welcome back again, 
Teresa.

  STATEMENT OF TERESA NECE, DIRECTOR, FOOD AND NUTRITION, DES 
            MOINES PUBLIC SCHOOLS, DES MOINES, IOWA

    Ms. Nece. Thank you. Chairman Harkin and members of the 
Committee, I am Teresa Nece, Food and Nutrition Director, Des 
Moines Public Schools, Des Moines, Iowa. I am pleased to be 
here today representing my school district, other Iowa schools, 
as well as schools across the Nation. Mr. Chairman, you and 
each Committee member are to be commended for spending your 
time working on behalf of our Nation's children. The children 
deserve policies and programs that will contribute to their 
health and well-being. My comments today will be focused on the 
Fresh Fruit and Vegetable Program currently operating in 14 
States and on three Indian Tribal Organizations, representing 
375 schools.
    Des Moines has been fortunate to have had four of its 59 
schools participate in the Fresh Fruit and Vegetable Program 
during the past 5 years. Currently we have two program 
participants reaching approximately 900 students reaping 
program benefits each and every day.
    The Fresh Fruit and Vegetable Program has been very 
successful in participating schools across the Nation because 
the fruits and vegetables are available free to all students. I 
feel this is a very important aspect of the program design. One 
of the original reasons for offering fresh fruits and 
vegetables to students throughout the day was to demonstrate 
that when fresh fruits and vegetables were made readily 
available, students would increase their consumption of fruits 
and vegetables and decrease consumption of candy, chips, and 
other similar, less healthy snacks. The theory has worked.
    Our students have definitely enjoyed the experience of not 
only trying familiar fruits and vegetables but also new and 
different fruits and vegetables.
    One of our first learning experiences in a middle school 
was to offer Bartlett pears in the classroom. We discovered 
that the sixth, seventh, and eighth grade students thought 
fresh pears were white, soft, and sliced. Many of the students 
had never seen or tasted a whole fresh pear. Classroom teachers 
discovered that they had many teachable moments with the fruits 
and vegetables. They embraced the program and encouraged their 
students to try new foods each and every day. What more could 
we ask of our teachers?
    We have noted improved eating habits of the students as 
well as a healthier school environment in our buildings. One of 
the greatest benefits of the program has been the creation of a 
school community focused on healthy foods offered throughout 
the day--before school, during school, and after school. This 
environmental change has taken work on the part of all staff 
and students. In our schools, we offer fresh fruits and 
vegetables in the classrooms every day, in the school 
cafeteria, in the office, and in the nurse's office.
    Parents have told us about their students looking forward 
to the fruits and vegetables at school, as well as about 
shopping experiences at the grocery store when the students 
request the purchase of fruits and vegetables that they have 
had during the week.
    Teachers and principals have stated many times one of the 
unexpected benefits of the program is the opportunity for 
students and teachers to talk about something other than 
academics. In Des Moines, the piece of fruit or vegetable has 
brought a neutral focal point for teaching life skills and has 
supported the development of a school family focused on success 
for all students.
    Teachers have watched their learning behavior of their 
students change, creating a relaxed classroom atmosphere that 
enhanced the learning experience. They identified that their 
students are more ready to learn with the availability of the 
fresh fruits and vegetables in the classroom.
    The program has been a positive experience for our 
district. I have had requests for expansion of the program into 
schools within my district because of the positive impact of 
the program. Our State child nutrition director has received 
numerous calls from other schools in Iowa requesting 
information on how to get involved.
    This program impacted the lives of our students by creating 
an environment focused on developing good eating habits. This 
program has supported the role of the school meal programs and 
has enhanced the learning environment in the total school. I 
know that our Iowa experiences mirror experiences from across 
the Nation.
    Chairman Harkin and members of the Committee, the Fresh 
Fruit and Vegetable Program has demonstrated changed student 
food consumption practices. Children are eating more fruits and 
vegetables. Healthy fruits and vegetables are chosen more often 
by students, decreasing the consumption of less healthy snack 
foods.
    In summary, Mr. Chairman and members of the Committee, the 
Fruit and Vegetable Program has been remarkably successful, not 
just in fulfilling its stated purpose of increasing fruit and 
vegetable consumption, but also in helping to create something 
much bigger, namely, a culture of wellness and health 
promotion. I strongly believe in the value of this program and 
would like to see the program expanded. Additionally, I would 
like to see the school meal programs enhanced with additional 
funding to support infrastructure needs to facilitate increased 
offerings of fruits and vegetables as a part of the School 
Breakfast and Lunch Programs.
    I look forward to my continued work in impacting the lives 
of students and families each day in Des Moines. And that 
concludes my statement, and I thank you.
    [The prepared statement of Ms. Nece can be found on page 68 
in the appendix.]
    Chairman Harkin. Ms. Nece, thank you very much, and thanks 
for your great leadership in Iowa in this program. I am going 
to have more questions for you when we get to our question 
period.
    Now we turn to Susan K. Neely, President and CEO of the 
American Beverage Association. Welcome.

  STATEMENT OF SUSAN K. NEELY, PRESIDENT AND CHIEF EXECUTIVE 
     OFFICER, AMERICAN BEVERAGE ASSOCIATION, WASHINGTON, DC

    Ms. Neely. Thank you. Good morning, Mr. Chairman, Senator 
Chambliss, and members of the Committee. Thank you for the 
invitation to appear before you today to discuss child 
nutrition and the school setting. I am Susan Neely, President 
and CEO of the American Beverage Association. We represent the 
nonalcoholic refreshment beverage industry and have done so for 
almost 90 years, which means we represent producers, 
distributors, franchise companies that market hundreds of 
brands, bottled water, flavored water, fruit juice, ready-to-
drink teas, coffees, fruit drinks, carbonated soft drinks, 
dairy-based beverages, and sports drinks. I am also the mother 
of two elementary school aged children and originally from 
Iowa.
    Mr. Chairman, the American Beverage Association agrees that 
the obesity crisis is a complex national challenge that 
requires us to re-examine old practices and find new solutions. 
All of us--policymakers, parents, educators, industry, and 
community leaders--have a responsibility to do our part to help 
teach our children how to have a healthy lifestyle. I am proud 
to report that the American beverage industry is doing just 
that. The Committee invited me here today to talk about our 
recently adopted school beverage guidelines which limit 
calories and increase nutritious offerings in the beverages 
that are available in schools.
    Last May, ABA, Cadbury Schweppes, Coke, and Pepsi teamed up 
with the Alliance for a Healthier Generation, a joint 
initiative of the William J. Clinton Foundation and the 
American Heart Association, to develop these new guidelines. In 
a nutshell, the only beverages available in elementary and 
middle schools will be water, low-fat and nonfat milk, and 100 
percent juice. The milk and juice products will be portion 
controlled to keep calories in check while delivering key 
nutrients children need. For older students in high schools, 
the product mix is broadened to include low- and no-calorie 
beverages, light juices, and portion-controlled servings of 
sports drinks and other beverages that are all capped at 100 
calories per container.
    The most dramatic effect of the guidelines, once fully 
implemented, is that full-calorie, carbonated soft drinks and 
fruit drinks will no longer be available in schools. Mr. 
Chairman, I repeat, we will no longer sell full-calorie soft 
drinks in schools, even high schools.
    We agree with parents and educators that schools are 
special places and play a meaningful role in shaping our 
children's health. The guidelines were designed using nutrition 
science, including the Dietary Guidelines for Americans 2005, 
as well as the American Heart Association's Dietary Guidelines 
for Healthy Children and 2006 Diet and Lifestyle 
Recommendations.
    We think we have struck the right balance with these 
guidelines. A recent national survey found that 82 percent of 
parents surveyed support our school beverage guidelines. It is 
important to note that they support the guidelines over more 
restrictive alternatives. When asked to choose between the 
guidelines and a policy providing only water, low-fat milk, and 
100 percent juice in all grades, K through 12, parents support 
the guidelines by a margin of 56 percent to 42 percent. When 
asked if they support the guidelines or a complete ban on 
vending in schools, they chose the guidelines by a margin of 82 
percent to 14 percent.
    Clearly, parents believe we have hit the mark with our 
policy. It is based on sound nutrition and reflects the reality 
of how most of us live. Like grownups who like our treats, kids 
want to drink both nutritious and enjoyable beverages. Through 
these guidelines, schools can help our children learn how to 
choose beverages that are lower in calories and/or high in 
nutrition.
    Now, the No. 1 question we get about our guidelines, even 
from those who say they support it, is: Will they be 
implemented? They are only voluntarily. I can assure you that 
the beverage industry is working hard to implement the 
guidelines. In the past 10 months since we signed the 
Memorandum of Understanding with the Alliance for a Healthier 
Generation, our companies have spent hundreds of hours training 
their marketing and sales teams. The teams have reached out to 
school contract partners to educate them. We are reformulating 
products. We are creating new package sizes to meet the smaller 
portion sizes required in the guidelines. And we are 
retrofitting vending machines to accommodate the changes in 
package sizes. Mr. Chairman, our policy is indeed a national 
policy as our companies are implementing it in each one of 
their schools across the country.
    The School Beverage Guidelines MOU requires full 
implementation of the guidelines by August 2009. The first 
progress report on implementation of the guidelines will be 
completed in August. We fully expect the August report to show 
a continued decline in the sale of full-calorie soft drinks in 
our schools.
    The bottom line: The School Beverage Guidelines are common 
sense, supported by science, backed by parents, responsive to 
concerns about calories and nutrition, and they are already 
being implemented across the country. We are making it happen 
in our schools.
    Mr. Chairman, I sincerely appreciate the opportunity to 
appear before the Committee and want to conclude by stating 
again how proud we are of these new school beverage guidelines. 
While we applaud this Committee's efforts to find new ways to 
address good nutrition, we hope it will recognize and support 
the significant effort by this industry to change the beverage 
offerings in schools that is already well underway. We will 
continue to do our part to support healthy, happy kids. After 
all, we are parents, too.
    Thank you very much.
    [The prepared statement of Ms. Neely can be found on page 
72 in the appendix.]
    Chairman Harkin. I can assure you that we recognize it, and 
we compliment the industry for taking these bold steps. I think 
it is moving in the right direction.
    Ms. Neely. Thank you.
    Chairman Harkin. Thank you very much.
    And now we turn to Mary Lou Hennrich, Executive Director of 
Community Health Partnership in Portland, Oregon. Ms. Hennrich?

 STATEMENT OF MARY LOU HENNRICH, EXECUTIVE DIRECTOR, COMMUNITY 
              HEALTH PARTNERSHIP, PORTLAND, OREGON

    Ms. Hennrich. Thank you, Chairman Harkin, Senator 
Chambliss, members of the Committee. Thank you for the 
opportunity to allow me to testify today and, as you said, my 
name is Mary Lou Hennrich. My 35-year career as a public health 
nurse and administrator finds me currently serving as the 
Executive Director of Community Health Partnership, Oregon's 
Public Health Institute, based in Portland, Oregon. Community 
Health Partnership is an independent, nonprofit organization 
committed to improving the health of Oregonians. In recent 
years, our organization has led statewide efforts to improve 
the nutritional quality of foods and beverages in schools, 
similar to what you are trying to do nationally. I have 
advocated for stronger school nutrition standards in Portland 
Public Schools, which is my local school district and Oregon's 
largest district.
    The challenges we have encountered in our efforts at the 
local and State level--and in Oregon, we have been working for 
nearly 6 years to pass State standards for food sold outside 
the National School Lunch Program--have made it very clear to 
us that we need strong Federal leadership on this issue. That 
is why our organization has endorsed Senators Harkin and 
Murkowski's Child Nutrition Promotion and School Lunch 
Protection Act of 2006 and will do so in 2007, and we urge the 
Senate to pass it this year.
    I am going to speak a little bit about local control 
because this seems to be an issue that comes up at the State 
level where, when we try to do things on a statewide basis, we 
are told local districts want to do it. I think when the 
Federal Government tries to do it, they are told the locals are 
the States. So it is kind of like everybody is passing the buck 
on, you know, who is the local and everybody else should be 
doing it.
    I think parents do not care whether school food standards 
come from Congress, a State, or the local school district. To 
them, local control means that they have control over what 
their kids are eating in school. And parents have told us, 
loudly and clearly, that they want the foods sold in their 
children's schools to be healthy. The sale of low-nutrition 
foods in schools undermines parents' ability to help their 
children eat a healthful diet. Parents should not have to worry 
that their children will spend their lunch money on low-
nutrition foods from vending machines, school stores, and a la 
carte in the cafeteria instead of on balanced school meals.
    While we respect that many school-related policies are left 
to local control, school foods are different. School foods have 
been a Federal issue since the Truman administration. Congress 
and the USDA set detailed standards for school lunches and 
breakfasts. And as Senator Harkin said, the Federal Government 
invests huge amounts of money--$10 billion in fiscal year 2006 
alone--in school lunches and breakfasts. Selling low-nutrition 
foods in schools undermines that major taxpayer investment and 
the efforts to ensure that school meals are healthy.
    The majority of the Nation's 14,000 school districts are 
not equipped to develop science-based nutrition standards for 
school foods. A recent national analysis found that only 20 
percent of the largest 100 school districts in the country have 
set specific nutrition standards for a la carte and vending in 
their recently passed local wellness policies. In Oregon, our 
organization analyzed the 174 local district wellness policies 
that were filed with the State Department of Education. That is 
out of what should have been 189, but there were a few 
districts that did not even turn in a policy. And we found the 
exact same percentage, which was 19.5 percent of policies, set 
any specific guidelines around foods sold outside the National 
School Lunch Program. So the local wellness policies did not do 
it.
    All other things being equal, local control is an important 
consideration. However, the inherent value of local control 
must be weighed against the significant threat that childhood 
obesity poses to our children's health. I think as Senator 
Harkin clearly said this morning, we have got diabetes on a 
rampant rise, and almost 40 percent of girls and one-third of 
boys are on track to develop diet-related diabetes. We have got 
to re-examine the value and effectiveness of local control with 
regard to children's health and nutrition.
    Things have drastically changed in schools in the past 20-
plus years. When my oldest child, who is now 32 and is a 
teacher, was in school, 99 percent of eating happened in the 
cafeteria. Now that she is a teacher, she reports that more 
than 75 percent of eating occurs in hallways and classrooms. 
Indeed, there is a lot of food sold through venues other than 
school meals. Nationally, 83 percent of elementary schools, 97 
percent of middle, and 99 percent of senior high schools sell 
foods and beverages out of vending machines, school stores, or 
a la carte. Unfortunately, too many of the choices offered to 
children, as you have heard, in these venues are of poor 
nutritional value. They also undermine what is being taught in 
the classroom. We need to sell what we tell.
    There are revenue considerations. The sale of low-nutrition 
food outside school meals programs undermines school lunch. For 
example, when Jefferson County School District in Kentucky set 
nutrition standards for items sold through its a la carte line, 
it experienced an annual decrease of $3 million in a la carte 
revenue. However, at the same time it saw a $6.9 million annual 
increase in school meal revenue. We are finding that in 
Portland. It has changed its offerings dramatically and now is 
seeing an increase in the money they are getting from national 
school meals, and the kids are getting healthier foods.
    So I have other things in my testimony, but I think you can 
ask me questions on that. Our organization did what turned out 
to be the sentinel study on soda contracts, and I can answer 
questions about the revenue, the changes. We applaud the ABA 
for their voluntary guidelines but do point out they are 
voluntary. Schools must approach and ask to have these 
implemented. We believe that those guidelines should be the law 
of the land, and we would hope that would happen under your 
bill.
    So thank you very much. I urge the Committee and the rest 
of the Senate to set national nutrition standards for foods and 
beverages sold out of vending machines, school stores, and a la 
carte. It is important that Congress act now to address this 
pressing problem. Children are only children once, and every 
year that we wait and debate this and do not move forward, we 
have lost a year in that child's life.
    Thank you very much, and I would be glad to answer 
questions later.
    [The prepared statement of Ms. Hennrich can be found on 
page 64 in the appendix.]
    Chairman Harkin. Thank you very much, Ms. Hennrich, and I 
will come back to the part of your statement that you did not 
mention about what happened in Portland with the removal of 
soft drinks.
    Ms. Hennrich. Yes.
    Chairman Harkin. Now, Dr. Kelly Brownell, Professor of 
Psychology and Epidemiology and Public Health at the Rudd 
Center at Yale University. Welcome back again, Doctor.

STATEMENT OF KELLY BROWNELL, FOUNDER AND DIRECTOR, RUDD CENTER 
   FOR FOOD POLICY AND OBESITY, YALE UNIVERSITY, NEW HAVEN, 
                          CONNECTICUT

    Mr. Brownell. Thank you, Chairman Harkin, Senator 
Chambliss, and colleagues. Being a proud native of Indiana, I 
am especially happy to make Senator Lugar's acquaintance.
    The window is open at this particular moment in history. 
The public is interested in child nutrition. They are willing 
to take action, and they are willing to have their elected 
leaders take action. We realize as a Nation that our children 
need protecting from a difficult and challenging food 
environment, and we also realize that the foods children eat in 
schools affects their health, well-being, and also our national 
presence in education. And a malnourished child, which could 
mean an overnourished child, will not perform well in school.
    I would like to introduce a concept that economists and 
public health people have been looking at for a number of years 
called ``optimal defaults.'' The idea is that one hopes to 
create an environment where healthy behavior becomes the 
default rather than the reverse. So take lead paint, for 
example. We have legislation that forbids the use of lead 
paint, so when people paint, it becomes a healthier behavior by 
default. Air bags in cars would be another example. Unleaded 
gasoline would be yet another example. There are a number of 
precedents like this where we try to create an environment that 
makes healthy behavior the default.
    Unfortunately, in the food environment, unhealthy behavior 
has become the default, and it has become very difficult for 
parents to offer a good nutrition environment for their 
children, particularly when it is occurring in schools.
    I am happy to come with a scientific perspective on this, 
and I would like to discuss several things that we know not to 
be true and several things we know to be true.
    First is the myth that schools will lose money if they get 
rid of what we commonly know as junk food. As the previous 
speaker mentioned, it has not proven to be the case. Schools 
will either stay neutral or make more money if they switch out 
the unhealthy for healthier food.
    The second myth is that children will compensate outside of 
schools for the unhealthy food that they are not getting in 
schools. Colleagues of mine at Yale University have recently 
completed a study finding that not to be the case, that what 
happens is children tend to eat the same outside of schools, 
but, of course, improve what they eat in schools because of the 
better nutrition environment.
    The third issue is that local control is sufficient. We 
have done a study in Connecticut, my colleagues at the Rudd 
Center, looking at school wellness policies. There is 
remarkable variation in the way the schools either develop 
their policies, much less implement them, ranging from very 
aggressive and progressive nutrition-related school policies to 
something that is nothing more than a paragraph on a sheet of 
paper. And, hence, local control does not seem to be getting 
the job done, and if we wait for school district by school 
district to make the changes, I fear we have a very long wait 
indeed.
    Let me turn my attention to things we know to be true. 
First, the food landscape has changed remarkably for the 
American child. From 1994 to 2004, for example, there were more 
than 1,600 new candy products introduced specifically targeted 
to children. There were 52 fruit and vegetable products. This 
typifies the food landscape.
    Science has advanced a great deal during that time, and we 
have learned an awful lot about what contributes to child 
obesity and to poor nutrition in general. For example, we have 
a paper about to come out in the American Journal of Public 
Health looking at the impact of sugared beverage consumption on 
children's nutrition and their risk for obesity and diabetes, 
and yet again the science shows clearly, in words that Senator 
Lugar used, incontrovertible evidence that soft drinks and 
sugared beverages are related to poor health, poor nutrition, 
and risk for diseases like diabetes. There is no longer any 
dispute on this in the scientific literature.
    So what we have is that the defaults are sub-optimal. 
Children are raised in a difficult environment. Schools become 
a wonderful opportunity to turn that tide around. It is a place 
where children spend many hours. It is a place where they learn 
lessons about nutrition as well as eat the foods there, and 
creating a good environment for them can be a remarkable 
opportunity for us as public health advocates.
    The schools should be more than a good nutrition 
environment, but it should teach good nutrition lessons. And 
having branded products in machines interferes with that 
because children become loyal customers at early ages and the 
fact that a child may see a beverage machine that has a 
somewhat healthier selection of beverages but still is branding 
certain soft drink brands can be quite difficult.
    Schools, as I said, are a wonderful place to help, and I 
would like to end with the following idea. I have a sheet here 
that I believe is available to members of the Committee that 
shows trends in public opinion over the last 5 and 6 years. And 
if you ask the public whether childhood obesity is a serious 
problem, what began as a 74-percent endorsement in 2003 is now 
a 93-percent endorsement. If you ask Americans in polls not 
done by the food industry whether they favor soft drink and 
snack food bans in schools, the number began at 47 percent in 
2001, went to 59 percent, 69 percent, and 83 percent in 2006. 
So it looks like it is a winning issue, at least from my 
perspective, where public opinion combines with science to 
provide a very compelling need to change nutrition in schools.
    I am delighted that the Committee is looking into this. I 
find it a very positive sign. And I think in 5 and 10 years we 
will have a much better food environment in schools, and I am 
delighted that 2007 may be a place to start that journey.
    Thank you.
    [The prepared statement of Mr. Brownell can be found on 
page 56 in the appendix.]
    Chairman Harkin. Dr. Brownell, thank you very much for your 
testimony and for your great leadership in this area.
    We will have just a series of rounds of questions of 5 
minutes, and I will start with my round of questions at 5 
minutes.
    Ms. Thornton, as President of the School Nutrition 
Association, again, I compliment you and all of you who are in 
this room for all the wonderful work you are doing. One of the 
things that I am concerned about is the quality of commodities 
that are made available. Now, I have talked to a lot of people 
about this, and I need to know from you have they gotten better 
over the years, the commodities that are provided? We have not 
really talked about that here, but is that an area that we 
should be looking at in the farm bill this year? Any thoughts 
that you might have on the quality and the type of commodities 
that we provide for the School Lunch and Breakfast Programs.
    Ms. Thornton. I think the nutritional quality of 
commodities has improved dramatically over the last number of 
years. We are seeing beef products, for instance, with a lower 
fat content. We are seeing a lot more fresh fruits and 
vegetables. We are seeing canned fruits with water pack or a 
natural juice pack as opposed to a sugar-based pack. There are 
a lot more frozen options. And then the whole option of being 
able to divert products so that we can have those manufactured 
ourselves into an end product that is a nutritionally sound 
product has also been a great improvement.
    Chairman Harkin. I would welcome any input from your 
association about any thoughts you might have on how we address 
this, or if we should, in the farm bill this year in terms of 
modifications or anything that we should be thinking about. I 
would welcome that. But it has been sort of my information that 
they have gotten better.
    Ms. Thornton. Absolutely.
    Chairman Harkin. And I just wanted to ask you that, if that 
was your feeling also.
    Teresa, about the Fruit and Vegetable Program, it has been 
my understanding that not one school that has ever participated 
ever asked to be dropped from the program, and that you just 
keep getting more and more requests for schools to participate 
in this. And it has been my understanding also that now 
companies like, I think, Sunkist, Dole--I do not mean to single 
out any companies, but some like that are now packaging fruits 
and vegetables just for this program. Is that right?
    Ms. Nece. That is correct. Actually, I have not ever heard 
of a school that has requested to not participate. I have heard 
of schools that want to participate. You know, in Des Moines, I 
would say that I probably have 90 percent of the schools that 
are interested in participation because of the significant 
positive events that have occurred in the school environment, 
and that it has encouraged that healthy environment for not 
only learning but also for nutrition behavior.
    In terms of product availability, we have seen a great 
change in prepackaged food items including pineapple. One of 
the most popular student ones was a pineapple push-up.
    Chairman Harkin. I have seen that, yes.
    Ms. Nece. Which is just marvelous. But it makes also for 
easy classroom distribution so that you have little mess, and 
you do not have a great amount of waste from the food product 
itself.
    Chairman Harkin. I have told this story before. It was a 
third-grade kid that taught me how to eat kiwi fruit.
    [Laughter.]
    Chairman Harkin. I thought, kiwi fruit, boy, they are hard 
to peel, a mess. So I went to this one classroom 1 day, and 
they were having the fruits and vegetables. These kids were 
having kiwi fruit. And I thought, ``Boy, this is a mess. How is 
this going to work?'' This third-grade kid showed me. He took a 
spoon, got a little plate, took the spoon and jabbed it right 
in the middle, broke it open, scooped it out and ate it. Why 
didn't I ever think of that?
    [Laughter.]
    Chairman Harkin. I will never forget that.
    This Fruit and Vegetable Program, it was a theory that we 
tested. We wanted to test it to see if it would work. We had 
all kinds of information that maybe there would be a mess and 
there would be peels on the floor and all that kind of stuff. 
We found that that really did not occur. We had one--this was 
in Michigan, as a matter of fact, Senator Stabenow.
    Senator Stabenow. We have a lot of programs in Michigan.
    Chairman Harkin. I know. You have got a lot of them there. 
And we had one information--this is a couple years ago--where 
the bus driver--they had put some fruits on the bus going out 
to pick up kids. And the bus driver got really upset because 
kids were putting banana peels and apple cores on the floor and 
stuff like that, and he got very upset about it until the 
principal of the school decided to take affirmative action. He 
went to the local Safeway story--I do not know if it was 
Safeway or whatever store it was--and got these little plastic 
bags, and he just put them on the back of seats of the bus, and 
the kids would put them in there afterward, and the problem was 
solved. So it is just ingenious things like that.
    But I just think that this program has taken off. I will 
state publicly here right now that because this has proven to 
be successful, that kids do eat these fruits and vegetables, 
they are getting healthy, the teachers like it, the principals 
like it, the school boards like it. I have not seen anyone that 
has been opposed to it. It is my goal and I will do whatever I 
can to ensure that every elementary school kid in America in 10 
years gets free fresh fruits and vegetables in school. I think 
that is a goal we ought to shoot for, and we will do everything 
we can to get to that point.
    Senator Stabenow. Mr. Chairman, could I just insert one 
thing? Could we ask that they be grown in Michigan?
    [Laughter.]
    Chairman Harkin. I do not know about that. It is a national 
program here.
    Ms. Neely, my time is running out. I just wanted to ask 
you--well, my time is out; I will do it on my second round--
about the idea about snack food companies. The beverages seem 
to be doing OK, but the problem is with the snack foods that is 
a problem in our vending machines in schools. I want to ask you 
about that, but I will do that during my second round because 
my time has run out.
    With that, I will turn to Senator Chambliss.
    Senator Chambliss. Thank you very much, Mr. Chairman, and, 
Debbie, you all just don't grow peaches in Michigan. That is 
the problem.
    [Laughter.]
    Senator Chambliss. To serve to all these kids all over 
America.
    Ms. Nece, I am a big fan of that program, too. We were to 
be included, Georgia was to be included in the pilot program in 
the ag appropriation bill of last year, which, unfortunately, 
with the continuing resolution, got dropped out. But I share 
that with you, Mr. Chairman, and as we move into the farm bill, 
that is certainly an issue that we need to address, and I hope 
we are able to accomplish that.
    I would just like to ask you, as a practical matter, is it 
a problem to our local systems to any degree to purchase local 
fruits and vegetables? Or is it something they kind of look 
forward to?
    Ms. Nece. I think it is a great opportunity to involve 
local suppliers if the suppliers exist in the community, and I 
think that is a reasonable responsibility for a school district 
to look at options and ways of incorporating local.
    One of the challenges initially from my perspective in the 
startup was figuring out how to manage all the fruits and 
vegetables that were going to go to our classrooms, and then 
how were we going to distribute those out to each and every 
classroom in a school building and get it done in a timely 
manner to not interfere with the operation of the school day.
    And so that took some creativity, but I think that the 
options to look at local purchases using local suppliers of 
products that are not only local but what are coming from 
national manufacturers is a great opportunity.
    Senator Chambliss. Great. Ms. Thornton, Congress required 
schools to develop local wellness policies in the Child 
Nutrition and WIC Reauthorization Act of 2004, and the policies 
were required to go into effect at the beginning of this past 
school year. Knowing the nutritional expertise that can be 
provided by the School Nutrition Association, how active was 
your organization in helping schools develop their local plans? 
And how active will your organization be in helping to revise 
those plans as needed?
    Ms. Thornton. Our organization did offer training for 
wellness programs throughout the country as well as training at 
a number of our national meetings. But obviously only those 
folks that chose to attend those meetings had that training. I 
think it varied dramatically across the country as to how 
involved child nutrition folks were in the development of the 
plans. It was left up to the districts, obviously. But I think 
you could tell a difference in plans where someone in school 
nutrition was involved and then those where they were not.
    Senator Chambliss. Ms. Hennrich, as I hear from you 
relative to national mandates relative to nutritional aspects 
in our School Lunch Programs, I am one of those folks who 
happens to have a lot of confidence in our local folks. I visit 
schools on a regular basis. I have a fifth grader and a third 
grader as grandchildren. I have a daughter who is a teacher. 
When I go into the schools, I try to make it a point to eat 
lunch and visit with the kids, and I am always impressed by 
what I see. And I try to do it so they do not always know the 
Senator is coming to eat lunch so we are going to have what he 
likes that particular day.
    But I am saying this because you seemed to indicate with 
your recommendation that there is a problem out there. Local 
control means to me--we set broad parameters with which our 
dietitians are required to make certain selections of 
nutritional food, and whether it is the State or whether it is 
the local folks at the end of the day who adopt those dietary 
guidelines, it is the local folks who make the decision about 
what is going to be served in the lunchroom on those particular 
days.
    I just do not see the problem there. Now, if there is, if 
there are schools that are not serving the right kinds of 
meals, obviously we want to know about that. So I throw that 
out to you because that is what I got from your conversation in 
your statement there.
    Ms. Hennrich. Senator Chambliss, let me kind of go back and 
say more specifically it is not with the school meals program. 
We believe that Congress has done an admirable job and the 
locals have done an admirable job actually making the broad 
policy play in local districts. It is the fact that you do not 
have any reach over what is sold in hallways, in school stores. 
There are no Federal guidelines. That is the point to us, that 
those competitive foods are the things that we are concerned 
and why we believe that you should broaden your definition of 
not just in the cafeteria or where the school meals are being 
sold but throughout the whole school, because that is where 
kids are eating now. And there are no guidelines, no standards. 
Anything can be sold. There is the voluntary guidelines that 
are coming in from the ABA, but they do not have to play. And 
that is what we are concerned about. It is really up to 
individual local schools. And that is where I think they have 
been pushed in the corner in terms of funding, believing they 
have got to sell ``bad foods,'' foods that do not have much 
nutritional value, to kids in order to keep the band playing.
    Senator Chambliss. Well, I understood that part of it, but 
I obviously misunderstood and thought you were talking, too, 
about our lunchrooms.
    Ms. Hennrich. No.
    Senator Chambliss. Good. Because I am very proud of my 
folks.
    Mr. Chairman, I know my time is up. Unfortunately, as I 
indicated to you, we have got a hearing over in Armed Services 
relative to our issue out at Walter Reed, and I am going to 
have to go over there. But I did want to get into one other 
issue, but I am not going to have time to. But in Ms. 
Hennrich's testimony, you do refer to this situation involved 
Coca-Cola and the Portland Public School System, and your 
testimony seems to characterize a contract renegotiation is 
going to cost the public school system about a $6,000 penalty, 
that that is what Coca-Cola is seeking to extract. And in 
looking at the Portland Public School System's website, they 
have a press release on there dated February 7 that says 
exactly what is going on out there. And, Mr. Chairman, I would 
just like to insert a copy of that press release in the record.
    Chairman Harkin. Without objection.
    Chairman Harkin. OK. Thank you, Saxby.
    Senator Lugar?
    Senator Lugar. Mr. Chairman, I want to pick up on 
questioning Mrs. Hennrich. You pointed out that testimony from 
those who reported to you indicated that 75 percent of eating 
occurs in hallways and classrooms. Is that a general 
characteristic or a specific school? Or where did the 75 
percent come from?
    Ms. Hennrich. Senator, I think that was I was alluding to 
my daughter, who is a teacher, just saying, ``Mother, it is not 
happening in cafeterias anymore. It is happening all over the 
school.'' So that is not a scientific number. That was simply 
her estimate in her school that kids are eating from vending 
machines, school stores, things people bring from home and 
their lockers. You name it. She just said it is unregulated out 
there.
    Senator Lugar. There seems to be anecdotal evidence that 
that is true. If not 75 percent, I am just curious whether any 
of you have any research on how much occurs in the lunchroom, 
as Senator Chambliss was talking about admirable standards, and 
how much outside where there are no standards. This would seem 
to me to be a very important point, and maybe in due course we 
will get some research, if we do not have it.
    In any event, we have come to a conclusion that something 
is occurring outside the lunchroom and, in fact, in fairly 
large volume, and there has been a great deal of interest, and 
admirable, Ms. Neely's testimony, the voluntary efforts that 
are involved. But let me just say that essentially Mr. 
Brownell's testimony leads me to believe that we are back into 
an issue that is not unlike that which we faced with regard to 
the whole School Lunch Program, say in about 1994, 1995, and 
1996. The argument then was that certainly it was admirable to 
have these programs, but we have a Federal system, which means 
that we have States and we have local governments. And as a 
matter of fact, they look after children, too, are very humane, 
but there is no particular reason for a Federal lunch program. 
That was the issue, and it was fought vividly, and a pretty 
close decision.
    Now, people who were not there in that period of time 10, 
12 years ago cannot fathom that we were arguing whether we 
should have a National School Lunch Program. But that was the 
issue, and it could have been terminated at that point.
    Now, at this point, I am convinced that we really have to 
have national standards for what is occurring in the hallway. I 
think it is incontrovertible with regard to the obesity problem 
for our children. However, I ask you, Mr. Brownell, you say, 
Who should develop the standards? This is a critical issue. You 
said, ``It is likely that calls have been made for USDA to 
establish the definitions of Foods of Minimal Nutritional 
Value.'' You state, ``This could be a barrier to progress, 
given the dual and oft-conflicting priorities of the agency to 
help promote food sales but at the same time establishing 
national nutrition policy.''
    Therefore, you suggest that, ``Having the criteria 
established by the Institute of Medicine or the Centers for 
Disease Control and Prevention could help alleviate the dual 
role experienced by the USDA and avoid to some extent the 
problems created by the `revolving door' between the USDA and 
the food industry.''
    Now, without indicting USDA, I would just observe that we 
do have a political system in this country that is to the good. 
People come and go. Sometimes those who come into office have 
very different values that are not necessarily those of 
scientists, nutritionists, doctors, and so forth, taking a look 
at food. And, therefore, I am at least persuaded that the 
Committee ought to look very carefully at who sets the 
standards and, furthermore, that we probably should move to set 
some standards.
    Ultimately, the question will be raised--and several of you 
have suggested all the arguments against it, and this is a 
critical one often that comes up in local meetings, and that 
is, we need the revenue. Here is the principal, the 
superintendent, somebody. Just very frankly, we are not getting 
enough support from the State of Indiana or the State of Ohio 
or what have you, quite apart from the Federal Government. It 
is a question of kids' education. Which comes first? And this 
is a critical--now, so people say, well, perhaps that could be 
substituted, maybe if people began to eat nutritious foods and 
drinks and so forth, the revenue--maybe. But it appears to me 
that this is a factor for some research also. Who is eating 
outside the cafeteria, to begin with, and how much--and how the 
revenue situation is going to be there. Because, absent that, 
we are going to have a very tough problem in which we are 
talking about denying education to children while we are busy 
trying to fix the fact that they will not have diabetes. And we 
do not want to get involved in that kind of a critical choice 
if, in fact, the facts or the programs can avoid that.
    So I ask any of you for comment. My time is already 
expired, but, nevertheless, yes, sir?
    Mr. Brownell. It is a very realistic concern because the 
general lore is that schools are making a great deal of money 
from the sales of these products, and it is supporting the 
soccer team or the band or students to come to Washington on 
trips or things like that. And so there was a perfect need for 
some research on the topic, which has now been done, and the 
studies on this show either the revenue stays the same or 
increases as the foods become healthier because children will 
buy the healthier options.
    Senator Lugar. Thank you.
    Ms. Thornton. The School Nutrition Association also, if I 
may, totally agrees with your comment, but we also have some 
real concern as to what is happening within the cafeteria and 
the diversity that is there. We are all over the board with 
regard to nutrition standards, some being really high with 
maybe sodium, low on fat, standards are all over the place. And 
I think this chart that I gave you would just give you some 
indication of what we are seeing and how it is impossible to 
meet standards across the country by manufacturers and even to 
find product in many instances.
    Senator Lugar. We need some standards in the kitchen in 
addition.
    Ms. Thornton. Absolutely.
    Senator Lugar. Thank you.
    Chairman Harkin. I might just add, Senator Lugar, that a 
couple of years ago, in anticipation of trying to figure out 
who was going to decide what these standards are, in our 
appropriations bill we requested the Institute of Medicine and 
the National Academy of Sciences to study this and to come out 
with some recommendations. And I am told that they are going to 
do that sometime this spring. It has been about 2 years in the 
development.
    Senator Lugar. Good.
    Chairman Harkin. So we will have at least some 
documentation on this, hopefully soon, I hope.
    Senator Lugar. That is great.
    Chairman Harkin. From the Institute of Medicine. Is that 
right? It is going to come out this spring sometime? So 
hopefully we will have at least that to go on. Thank you, 
Senator Lugar.
    Senator Casey?
    Senator Casey. Thank you, Mr. Chairman, and I want to thank 
the panel for your testimony and for your great advocacy.
    I have a couple of specific questions, one with regard to 
the Fruit and Vegetable Snack Program. We know that there are a 
lot of States out there--a lot of schools, I should say, in 
those States that have a real interest in participating. In 
Pennsylvania, we had last year, I am told, some 1,000 schools 
applying, but, of course, it is limited by the program to, I 
guess, 25.
    I would ask you your opinion on that and how we go about 
expanding that so that more and more schools in a lot of our 
States can participate. And I know that is directed at all of 
you, but whoever wants to take that one.
    Ms. Nece. Very well. I will take the first shot at it.
    Senator Casey. Thank you.
    Ms. Nece. I think there are some collective, collaborative 
ways where we need to look at how we expand the options. And 
you are correct, currently in any of the States participating, 
there are primarily 25 schools to the State. And that is true 
in Iowa, and it is open for application each year, and those 
applications then are reviewed under a set of criteria for 
implementation.
    I think there is a nutrition education component that is 
extremely important in the Fruit and Vegetable Program. One of 
the ways in my district that we gets fruits and vegetables 
available in our elementary schools is through a grant. It is 
referred to as ``Basics,'' and it is a nutrition education 
curriculum that goes into the classroom, and as a part of that, 
we provide fruits and vegetables as a part of a snack. And that 
has been a very successful way for us to incorporate fruits and 
vegetables in the schools that are not grant schools.
    Ms. Thornton. I think another way you may do it is through 
the commodity program. We are asking for more commodities for 
breakfast. Fresh fruits and vegetables would be great for 
breakfast. So if we could tie those two together, then we would 
have both issues solved, perhaps.
    Senator Casey. Thank you. And a related question on 
coordination. In Pennsylvania, as I mentioned before, we have 
got about a million children, just over a million children, in 
School Lunch, but just about a quarter of a million or so in 
School Breakfast, and that lack of coordination is obviously a 
problem for Pennsylvania. I guess it is a two-part question 
that could go to anyone, Ms. Thornton, Ms. Nece, Ms. Hennrich.
    I guess the two-part question, one is: How can Pennsylvania 
move forward to better coordinate that based upon your 
experience? But, also, have you seen this lack of coordination 
or disconnect between School Lunch and School Breakfast in your 
own communities or in other States?
    Ms. Thornton. I think we see that obviously nationwide, 
just from the numbers we have. But very often we get back to 
the money issue. If a parent has to pay for one meal of the 
day, they typically pay for lunch because that is in the middle 
of the day. When they do not have money, then that breakfast is 
often left off there. That is why we are really anxious to see 
money appropriated for this pilot, because those reduced-price 
kids are often the ones that do not have food available at home 
either. So if we can see if money is truly that issue, I think 
this would give us one more step forward to being able to do 
something about that.
    Senator Casey. Ms. Hennrich?
    Ms. Hennrich. I know that in Oregon the numbers are about 
the same, the percentages. Of course, Oregon has much smaller 
numbers than Pennsylvania. But I think that what I have heard, 
breakfast in the classroom, and really getting schools that 
offer breakfast for all kids and that has to do--and I am not 
an expert because I am not a school nutrition director. But 
hearing from them, I know there are programmatic issues and 
issues around funding that make it difficult to--only if you 
have a certain percentage of free and reduced children then can 
you really offer it freely in every classroom every day. And so 
I think that they are constantly balancing, wanting to do the 
right thing and providing the nutrition both at breakfast and 
lunch, with the limited resources. So I think it is a balance 
of getting the will and the direction and the help to really 
have good programs and know how to do them, along with adequate 
funding so they can really make it happen.
    Senator Casey. And, Ms. Hennrich, I wanted to point to your 
testimony, just startling numbers here. On page 2, two sets of 
numbers which are disturbing to say the least: Rates of obesity 
among U.S. children and teens tripled between 1980 and 2002. 
That is fact No. 1. And the second one, for individuals born in 
2000, the chance of developing diabetes during their lifetime 
is 39 percent for females, 33 percent for males. Just 
startling. And with those statistics that everyone here has 
heard over and over again, but they bear repeating--and you 
also have the question of the voluntary nature of these new 
guidelines. What do those who are at the witness table 
recommend in terms of making the connection between what the 
Beverage Association membership is trying to do--and we 
appreciate that--and the failure by more schools or school 
districts to take this challenge more seriously because of the 
voluntary nature of where we are with the guidelines? Anyone 
want to chime in there?
    Ms. Hennrich. Well, I will jump in first. One of the 
problems is that I think schools kind of inadvertently, before 
they realized we had the child obesity epidemic happening and 
the diabetes epidemic, they were struggling for funds and so, 
you know, kind of walked into, geez, let's just have this 
vending machine and make a little money and put it down here. 
And the next thing you know, let's have a few more vending 
machines. And my son is 27 and went to a Portland public school 
high school, and I said to him about a year back when I was 
really into this, I said, ``Brent, did you have machines at 
Benson High School?'' And he goes, ``Of course we did, 
Mother.'' And I said, ``Well, I walked in and out of there a 
lot as a parent volunteer doing''--``I never noticed them.'' I 
think they have become such a part of the landscape everywhere 
we go. Hospital emergency rooms. I mean, all kinds of places 
that I believe should be role models about health have vending 
machines everywhere selling products that I do not think any of 
us think are the best for our kids. And yet they happened. They 
one by one kind of snuck in. And then what--the Portland 
district I think is a good example. They found they had--all 
the different high schools had contracts with different--with 
Pepsi or with Coke. And all of a sudden--and different 
agreements and different things happening.
    So they said, my goodness, we have got to get this 
together, and they came up with one contract. And it is an 8-
year contract. It started in 2001 and goes to 2009. And we 
found in our soda contract study that we have some districts in 
Oregon that signed 15-year contracts. And there is one school 
district that kind of knowing that all this turmoil and the 
local--the voluntary standards were coming in, quickly went and 
signed a contract that starts in 2008 and goes to 2015.
    So some of them are stuck with the contracts they did in 
2001 and 2002. Others seem to be rushing to kind of get 
themselves into a contract that will go out into the future. 
And it is complicated with the voluntary guidelines. Although 
the MOU from the alliance says that they, you know, will not 
stand in the way of local districts changing product mix, et 
cetera, we are not finding that to be true in every case. And I 
think Portland is an example where they did go further than the 
voluntary guidelines. They took out diet sodas and they took 
out sports drinks. So they went further than the guidelines, 
but they have been told--we were told at a meeting of the local 
wellness task force by the director of nutrition services that 
although this had all been negotiated and agreed upon last 
fall, that all of a sudden this spring we are told by Coca-Cola 
that things were changing, and either those products needed to 
come back in or potentially face a $600,000 fine.
    Now the district is in, quote, good-faith negotiations at 
the moment, and we do not get any information on what exactly 
is happening. So it is complicated, I think, by the fact that 
you have got voluntary guidelines now that have come in, but 
you have these contracts, and the local districts, they are all 
very different. And it is going to take a while to unwind all 
of it, I think.
    Senator Casey. Thank you. I am over time.
    Chairman Harkin. Thank you.
    Senator Salazar?
    Senator Salazar. Thank you very much, Chairman Harkin.
    Let me just at the outset say that I fully support you and 
endorse you in the great role of getting every one of our 
children in elementary school to be a part of the Fruit and 
Vegetable Program within 10 years. I think it is a laudable 
goal, and I think it is something that hopefully we can develop 
the kind of inertia around here to make happen.
    Let me ask a question to you, Ms. Neely. It seems to me 
that on either side of you, you have proponents of the Federal 
mandate in terms of how we deal with our children and the 
cafeterias, out in the hallways, and so forth. And my question 
to you is: You as Beverage Association have come up with a set 
of voluntary guidelines, and what I would like to know from you 
is how you believe that those voluntary guidelines ultimately 
will be effective. And from you, Mr. Brownell, from an academic 
point of view, how can we measure the effectiveness of these 
programs? I see the mandates that we have put forward, for 
example, with respect to teenage/underage drinking, and yet we 
know the statistics on college campuses and drinking between 16 
and 21, which shows that those mandates have not worked. And I 
would venture that all of my colleagues here and all of you 
would agree on the goal that we want to have healthier children 
and we want them to be eating healthier foods.
    So my question to you is whether you believe that the 
voluntary guidelines that the Beverage Association has come up 
with will get us there. And, No. 2, how do we deal with the 
reality of the fact that the schools cannot do everything? It 
is the parents that are buying things and bringing them--
allowing their children to take them to school or whatever. How 
do you deal with that reality? The schools control, you know, a 
significant aspect of what happens in terms of a child's diet, 
but the rest of the world that we deal with. And so at the end 
of the day, whatever we end up doing in terms of mandates or 
supporting voluntary compliance, how do we ensure effectiveness 
at the end of the day?
    Ms. Neely. Well, that is a very large, important question, 
and I will try to answer a bit of it from the beverage industry 
perspective.
    First, I will start with the latter part of your question, 
schools versus what happens at home and elsewhere in a child's 
life. I think we do agree with Dr. Brownell that schools are 
the optimal environment to teach healthy behaviors, which is 
why the beverage industry wanted to enter this agreement with 
the Alliance for a Healthier Generation. It is a special place, 
and it is where we can teach children the best habits. So 
schools are important to learn lifelong habits, and that is why 
we are all concentrated on them.
    I would also say that beverages are, as is being discussed 
here, only one component of the obesity challenge, and so we 
are trying to tackle our piece of it, what is sold in the 
vending machines, and our agreement with the alliance actually 
applies to all of the beverages sold. We have the most impact 
as an industry on the vending machines because that is where 
the majority of our contractual relationships are, but there 
also are obviously beverages sold in the cafeteria and the a la 
carte lines and the school stores. And it would certainly be 
our intent that this policy applies across the school. Again, 
it is a national policy.
    I will say that one of the things we so strongly support in 
the approach the alliance is taking is that it is a 
comprehensive look at the entire school environment, so it is 
not just the nutrition component, but it is also the fitness 
component, which Senator Harkin has sponsored a useful piece of 
legislation.
    Senator Salazar. Ms. Neely, do your guidelines go beyond 
the schools? And would there be a problem in terms of your 
guidelines going beyond the schools so that parents and anybody 
else that interfaces with a child's life actually would know 
what guidelines there are that might work in terms of the diet 
for their children from nonalcoholic beverages?
    Ms. Neely. Well, we think the schools are special places to 
have a more limited environment where kids could really learn 
healthy behaviors, and then as they are with their parent, I 
think those of us who are parents want to have some say over 
what they do as well.
    Senator Salazar. I have about a minute. I am very 
interested in this question of effectiveness, because it does 
not do anything for us to pass the greatest law in the world 
but----
    Ms. Neely. Our commitment is that these guidelines will be 
implemented by the start of the school year in 2009, so we are 
almost a year into it, and we have two 2 more years to go. So--
--
    Senator Salazar. I will be very interested in knowing how 
we are going to measure the effectiveness of the program. So 
let me, Mr. Brownell----
    Ms. Neely. We will bring you a copy of our first report in 
August, this August.
    Senator Salazar. I look forward to getting that report.
    Mr. Brownell, I have about a minute on my time, so if you 
can be quick.
    Mr. Brownell. I will be very quick. I believe the objective 
assessment of the effectiveness of this program would be in 
order, and somebody other than the industry should probably do 
that evaluation, but it definitely needs to be done.
    If I were betting on this myself, I would bet that this 
will take a long time to roll out. There will be spotty 
compliance, and that it will be incomplete in terms of changing 
the children's nutrition environment because it leaves in some 
sugared beverages, namely, sports drinks, and it amply allows 
opportunities for the company to do branding to the children in 
the schools. And I believe the schools should not be an 
opportunity for the soft drink industry to develop brand 
loyalty.
    The other thing I might say is that we should know that it 
is not the food industry that is putting the quarters and the 
dollars into those machines and helping pay for the education. 
It is the children and the parents of the community. So it is a 
myth that the industry is somehow helping education in this 
process. It is more or less a tax being applied to the parents 
and children of the community to help support the education.
    Senator Salazar. Thank you, Mr. Brownell.
    Thank you, Mr. Chairman.
    Chairman Harkin. Thank you, Senator Salazar.
    Senator Coleman?
    Senator Coleman. Thank you, Mr. Chairman.
    The New York Times about a year ago did a series of 
articles on obesity and the epidemic and the impact of 
diabetes, and it is truly devastating and worth taking a look 
at.
    The Chairman talked about the food industry in addition to 
the beverage industry. I represent a State that has General 
Mills, has been very, very active in their foundation and 
partnership, American Dietetic Association Foundation, the 
President's Council on Physical Fitness, they have Champion for 
Healthy Kids grant program, very, very active. I was a former 
mayor and worked hand in hand with the business community. I 
did not see them as the enemy. The Beverage Council, you know, 
coming forward with their programs.
    And perhaps you, Ms. Thornton, or others, how do you 
involve the private sector in this? As others said, Government 
cannot do this all by ourselves. Assuming--and, you know, I can 
look to General Mills or I can look to the beverage folks as 
folks who are willing partners. We may in the end not agree 
with everything that is being offered, but how do you engage 
the private sector in this? Do you see a role for them in what 
we are talking about here?
    Ms. Thornton. Absolutely. I think industry, at the local 
level, our community members, community organizations, even our 
churches, civic organizations--we all have got to work 
together. We all have a responsibility. In our district, we 
have even involved some factory leaders because we think they 
have a very vested interest in wellness of students in our 
community.
    So I think we need to stop perhaps pointing fingers and all 
start taking a role and recognizing that we have all got to 
work together to change what we are seeing happening right now. 
And I think we all want the same end results, and that is, what 
is best for children. It is just we may not all have exactly 
the same philosophy as to how we need to get there.
    Senator Coleman. Mr. Brownell, you seem somewhat critical 
of at least involving the industry in the evaluation of the 
research. What role do you see for the private sector in this 
issue of improving nutrition, fitness behavior, et cetera?
    Mr. Brownell. Did you address that to me?
    Senator Coleman. Mr. Brownell or Ms. Hennrich, either or 
both of you.
    Ms. Hennrich. You start.
    Mr. Brownell. OK. I believe the industry has done some 
interesting and progressive things. If we look at industry 
behavior in general, we could look back at the tobacco 
industry, for example, that deceived the public time after time 
after time, and what seemed like victories at the moment turned 
out not to be. Now, the food industry is not the tobacco 
industry, and food is not tobacco as a substance. However, 
there are some interesting lessons to be learned from that.
    So I believe industry has a voice. The industry players who 
are making good-faith efforts to move ahead on this should be 
applauded for doing so. Nor do I think we can just take at face 
value industry claims that they are holding the children's 
interest of the public at their heart.
    So who sets the guidelines becomes important, and I think 
industry should not set the guidelines for the nutrition 
education of our children. I think that should be done by a 
Government agency free of industry influence, and then industry 
can help accomplish the goals.
    Ms. Thornton. One of the things I would like to add, we 
have an Industry Advisory Council as a part of our 
organization. You should have before you a group of letters 
just collected here saying from industry that they think 
national standards are certainly the way to go in schools. So 
this is certainly putting it out of industry into your hands to 
say we do need something. It would make it so much clearer for 
everyone.
    Senator Coleman. And a question about the data. Mr. 
Brownell, in your data you have indicated that 83 percent of 
parents favor soft drink and snack food bans in public schools. 
Ms. Neely, you have got a figure that says by a margin of 82 
percent to 14 percent parents favor guidelines over bans. Could 
somebody sort that out? Ms. Neely?
    Ms. Neely. Well, I appreciate you asking that question, 
Senator. I think the distinction is that when we surveyed 
parents, we heard that they agreed with us that calories should 
come out of the schools. So that is why our policy, which was 
put together not by industry but with nutrition scientists at 
the American Heart Association, that is why our policy is 
framed around getting calories out of the equation. And even 
the products that are higher in nutrition, like 100 percent 
juice, are portion controlled so that the calories remain 
limited.
    So, again, our policy was developed with healthy input from 
a significant health organization, and we think it is 
appropriate, and supported by parents as common-sensical.
    Senator Coleman. I have to ask you a question, Mr. 
Brownell. If parents looking at the guidelines--and I take it 
your objection to the guidelines is that includes things like 
sport drinks, low-calorie----
    Mr. Brownell. And opportunities for----
    Senator Coleman. Pardon me?
    Mr. Brownell. And opportunities for branding.
    Senator Coleman. But if parents wanted to give their kids 
those choices--and parents, when you say it is a tax, kids are 
spending money, parents are--and with these contracts, they are 
making choices. And if parents want to make choices about 
things like sport drinks, again, understanding that there are 
guidelines that are worked out in accordance with recognized--
do you think parents should have that right?
    Mr. Brownell. Oh, of course. I do not know that anybody has 
proposed any rule that would interfere with parents' rights to 
do things. And, in fact, even the most severe ban ideas would 
not restrict children from bringing the beverages into schools 
if they wanted to do or if the parents wanted to do it. It 
really would be local choice and up to the parents. But the 
question is: Should the schools be selling snack foods and 
beverages to children that ultimately could be hurting their 
health?
    Senator Coleman. And if parents and the local school board 
wanted to make that choice, do they--I guess that is the 
question then. Do we come in and say there is a Federal 
standard and we are saying no? Or even if there is some balance 
there, even if there are these other options out there, but 
what we are saying is if there is this particular option, to 
have something with caloric content, to have a sport drink, if 
you are going to do that, one point of view would say no, we 
are not going to allow that. Ms. Neely, your response to that?
    Ms. Neely. Well, the question is should parents have some 
input or--I am not sure I understood the question exactly.
    Senator Coleman. I mean, the question--there is a 
perspective that we are trying to sort out here. Should there 
be a Federal standard that says no, in fact, no sport drinks, 
no--and that any caloric content, et cetera, if schools want to 
do that, and if parents and a local school board come up with a 
policy and a contract that says this is what we want, to offer 
these choices to our kids, understanding, you know, where the 
bulk of things, but we are going to offer choice for a sport 
drink, should--do parents have--do we respect the wish of the 
parents there or, in fact, should we simply come in and say 
that is a bad choice and we are not going to allow the school 
to do it?
    Ms. Neely. Well, I think as we all agree, schools are 
special places where educators, nutrition experts, policymakers 
want to work with parents to determine what the best approach 
is. Why we think, in working with the American Heart 
Association, we have hit the right balance is that we have 
focused on calories. So sports drinks are available for active 
kids who are engaged in sports, but they are capped at a 
certain size so that the calories are commensurate with what is 
determined appropriate.
    The view of the American Heart Association, when we 
developed the policy, is, well, kids should have water, they 
should have juice, they should have things that are high in 
nutrition or functional. But they also are going to want 
something that is enjoyable. So why not push diet soft drinks 
as an option only for high school kids, so if you are going to 
have a treat, you learn how in school to take the no-calorie or 
low-calorie option.
    So we think we have hit the balance because we are out 
there listening to parents, we are listening to schools, and we 
consulted with nutrition scientists in order to create that 
balance.
    One of the things our survey showed is that parents reject 
the notion of a wholesale ban. They think that is too much, 
that it just goes too far. And so, again, the mix in the 
machines or in the a la carte line or in the school store 
should be framed around calories and nutrition, not concern 
about specific products.
    Senator Coleman. Thank you.
    Thank you, Mr. Chairman.
    Chairman Harkin. Thank you.
    I might just add for the record that I have a letter here 
dated March the 1st from the American Heart Association and the 
American Stroke Association endorsing the legislation that 
Senator Murkowski and I are introducing today. I just want to 
read just one letter from this. It said that, ``The foods and 
drink sold in our schools must meet standards informed by the 
latest science.'' What we talked about earlier, Senator Lugar. 
``However, the current Federal nutritional standards for foods 
sold outside of school meals or foods of minimal nutritional 
value is now 30 years out of date. It is clear that a review by 
the Secretary of Agriculture of this definition is overdue.''
    So I know the American Heart Association was involved in 
that process with the Alliance for a Healthier Generation, but 
they are also saying that we need to enact national standards.
    I have a chart here. I will just take a little bit of time. 
I just wanted to show it. I think this might be an appropriate 
point in the proceedings. Why this is so important--no, I will 
just hold it up here. I do not need that. You can hold it up. 
Why it is so important to get the standards--or get the 
definitions updated, according to USDA right now, here is what 
is allowed: fruitades, french fries, ice cream bars, candy 
bars, cookies, chips, snack cakes, and doughnuts. Not allowed, 
seltzer water. No calories. Seltzer water is not allowed. 
Caramel corn, popsicles, jelly beans, chewing gum, lollipops, 
cotton candy, and breath mints.
    This is really confusing. This is just--that is why we need 
to update the standards, 30 years out of date. You can have a 
Twinkie, but you cannot have seltzer water. Now, that just does 
not make sense. That is just one aspect of the legislation, 
that is, to get them to update these standards so we get them--
kind of clear it out a little bit and bring it up to date.
    I am sorry to have taken that time to do that. I wanted to 
get that in now.
    We will go to Senator Klobuchar.
    Senator Klobuchar. Thank you, Chairman Harkin. Thank you 
for the work that you are doing. And like Senator Coleman, I am 
from Minnesota. I grew up on General Mills cereal. That is how 
I got a number of my vitamins in the morning. But I now have 
seen my daughter--she was at a very poor school for a number of 
years that was 80 percent free and reduced lunch. And it is one 
thing to have cereal, and it is another thing to see these kids 
eating snack food all day and drinking sugar pop. And I have a 
very personal reaction to this just because I have seen these 
poor kids that have gained a lot of weight and that really, I 
do not think, have much of a choice. And as you pointed out, 
some of it is how they have grown up and the food that they are 
getting from their parents. But I do not believe that we can 
continue going the way that we are and expect things to change. 
Obviously, some of this is having fruits and vegetables 
available, but some of it is also looking at having some kind 
of national standards.
    I guess my first question is about this--I have talked to 
some school officials in Minnesota, and they are attempting to 
proactivley look at the new nutrition guidelines by 
incorporating more fresh fruits and vegetables. But they have 
found themselves in something of a Catch-22 because it is 
expensive to do that, and so then they get into these 
contracts, as you pointed out, so that they bring more money 
in, and the kids are drinking pop and eating Fritos.
    And so my question is to Ms. Nece: Do you feel that greater 
support from the Federal Government would allow schools to pay 
for more nutritious foods and still have the flexibility to 
base their snack food sales on nutritional standards rather 
than financial concerns?
    Ms. Nece. Yes, I think that would be of some great 
assistance to school districts across the Nation. One of the 
proposals from the School Nutrition Association is to increase 
the commodity support or to actually create commodity support 
for the School Breakfast Program. The School Breakfast Program 
is one of the programs that used far less than the National 
School Lunch Program. And one of the things that I have seen in 
my district is an increase in breakfast participation, and part 
of that is because of the offering of fresh fruits and 
vegetables. Even in our Fresh Fruit and Vegetable pilot 
schools, we have watched the numbers continue to grow.
    Senator Klobuchar. Thank you.
    There was a recent ``Cathy'' cartoon that I showed to 
Chairman Harkin, and it was in the Sunday paper, and it talked 
about how the health-conscious consumer thinks more about fresh 
fruits and vegetables, knows more about fresh fruits and 
vegetables, plants more, buys more, but that the only thing 
that they do not do is actually eat them. And so my concern is 
that if we have a strictly voluntary approach to nutrition in 
schools, we can educate kids about how good they are. But when 
you put a kid in a situation--and, again, I have seen it, 
especially in a school where there is more poverty--where they 
are surrounded by high-sugar, high-fat, and professionally 
marketed junk food, many of them are going to choose that.
    So I guess my question of all of you is: Do you think it is 
reasonable to expect that education alone will guide children 
away from junk food and toward healthy food? Or should we be 
playing a more active role?
    Mr. Brownell. I can respond partly--go ahead.
    Ms. Hennrich. Go ahead.
    Mr. Brownell. I was going to say that there is a long and 
rich history of research on the effects of nutrition education, 
and it tends not to work very well in the absence of structural 
environmental change that supports it. So I agree with you that 
something more than just education needs to be done.
    Ms. Hennrich. And I totally second that. Nancy Becker is a 
dietician who works with us, teaches at Portland State 
University, and she kind of laughingly says, ``I spend my life 
teaching nutrition education, but,'' she said, ``honestly, 
changing the environment, making the foods available that we 
want people to eat, that is what is going to make change.'' Not 
saying that we should not be teaching kids, et cetera, but the 
fact is you can teach them up the ying-yang, and if you do not 
make those fruits and vegetables available for them to eat, 
they are not going to eat them.
    Ms. Thornton. I will also say that in my district I have 
had a number of parents call after we started serving a lot 
more fresh fruits and vegetables, and they were amazed that we 
were able to get the children to eat them. We are finding that 
because of the busy lifestyles of parents, we have so many more 
convenience foods, and the parents are becoming more aware that 
this is what they need to do. But because so many parents do 
not practice it at home, they do not truly understand the need 
for fresh fruits and vegetables, good nutrition at home. It is 
just easier to eat out of a box or out of a can or whatever.
    As we educate the kids and they are learning to eat 
properly, we are also indirectly educating those parents, and 
we are seeing a difference just from anecdotally what they are 
eating at home.
    Senator Klobuchar. But again, when you are around kids--I 
mean, I have been in different kinds of schools with my 
daughter where their parents are buying them grapes and that is 
what they are eating for a snack. You start having that kind of 
synergy in the school.
    Ms. Thornton. Yes.
    Senator Klobuchar. But when it is a poor school, I just do 
not think you see that as much. And so I think that we have 
neglected to take care of these kids when they are in our car.
    Ms. Nece. And, Senator Klobuchar, I just would emphasize 
again, we do agree that the school environment should be more 
controlled. That is why we are taking full-calorie products out 
of the schools so that it will be low-calorie offerings, and we 
are actually creating packages and reformulating products to 
have smaller portion sizes of the things that are high in 
nutrition and have more calories. So we agree that it should be 
a more controlled environment in the schools and are trying to 
walk the talk, so to speak.
    Senator Klobuchar. Thank you.
    Ms. Nece. The middle-school environment that we have the 
fruit and vegetable pilot that has been in existence for 5 
years has no vending machines available for students, and they 
did not have a snack machine, never had one. But they did have 
a soda machine a number of years ago. The machines went away. 
And the students are active participants not only in the school 
meals program, but also in that access to that fresh fruit and 
vegetable and product, and we do see consumption change. It is 
a school that is about 80 percent free and reduced.
    Chairman Harkin. Which school is that?
    Ms. Nece. Hardin Middle School.
    Chairman Harkin. Hardin Middle School. That is right. I 
have been there.
    Senator Klobuchar. You know, and, again, I as a parent just 
decided to make peanut butter sandwiches every day because they 
are more nutritious than what happens if you put them into this 
environment where they just cannot help but go to pick the 
pizza every day. Again, I think that we can do what we can with 
the environment, but at some point we are going to have to 
decide that this is what you are going to get to eat if we are 
going to change behavior.
    Chairman Harkin. Thank you very much, Senator Klobuchar.
    Senator Lincoln?
    Senator Lincoln. Thank you, Mr. Chairman, and thank you so 
much for your leadership holding this very important hearing to 
discuss an issue that is always on the minds of parents all 
across our great Nation, and that is the overall health and 
well-being of our children.
    Having for the third school day in a row forgotten to send 
in my check for school lunch----
    [Laughter.]
    Senator Lincoln. I left them out on the counter this 
morning for both of my children, but I discovered when I 
finally--and this is the benefit of having twins. When I asked 
one of my boys, I said, ``Now, why is it that you always run 
out of lunch money before your brother?'' And he hemmed and 
hawed, and, you know, he said, ``Well, it is because we can buy 
a cookie.'' And I said, ``Yes, but we agreed we are only going 
to buy cookies on Friday.'' And I said, ``Besides, how are you 
getting lunch?'' ``Well, I use my brother's card.''
    Anyway, there are a lot of choices and issues that we deal 
with, with our children, and it is so important for the 
parental engagement in terms of teaching those issues and those 
choices. And I think that that is something so important for 
all of us to remind ourselves.
    And there are other ways, too, for our parents to engage 
themselves in the school and what they are doing and what our 
children are doing. I know we have had a discussion about how 
many cookies we can have and when we can have them. And I 
remembered the check, so we are moving along here.
    But I do think it is important to remind ourselves that our 
children are going to be faced with those choices when they 
leave the schools as well. So if we as parents do not engage 
ourselves in teaching those good habits--and as a school, there 
is no doubt--as Ms. Neely mentioned, this is a place to learn 
and reinforce good choices and good behavior.
    I want to applaud your industry for the work you have done 
and the voluntary efforts that you have made in trying to bring 
about those choices. With children that are also doing after-
school activities, knowing that they are--other than the water 
fountain--the water fountain is good. We use those. But to know 
that there are those drinks that are there available to them 
after their sports activities to make sure that there is some 
thought being put into those drinks or into those beverages 
that they may be selecting.
    So it is a very healthy discussion that we are having and a 
very important one, coming from a State like Arkansas where we 
have seen tremendous childhood obesity and tremendous issues in 
diabetes as well, with our different populations, whether it is 
minority populations, low-income populations, and all of those 
issues that we are dealing with.
    So we want to do something that is constructive and 
certainly encouraging in terms of making sure that we are 
teaching good habits and making sure that parents are involved 
in that, too, because we know when they come home, that 
environment is perhaps going to be very different.
    I do want to put in a plug for the Breakfast Program. I 
think it is critically important, having had a sister that 
taught in the public schools, recognizing that children do come 
in with a tremendous amount of hunger and the need before they 
begin their school day to have that available to them. I think 
that is very, very important.
    Just a couple of quick questions. Ms. Neely, as you know, 
school districts are implementing local wellness policies as a 
requirement of the Child Nutrition Act. Any more that you might 
want to add to how school beverage guidelines mesh with those 
wellness policies?
    Ms. Neely. Well, we think the guidelines mesh very well 
with the school wellness policies, and as our marketing sales 
teams are meeting with school leadership, they are presenting 
this as something that would make sense in the context of the 
overall policy.
    Senator Lincoln. Well, and in order for things to work, 
people have to participate. What is the willingness or the 
percentage of school districts that you see showing a 
willingness to implement your guidelines over the past year?
    Ms. Neely. Well, we are 10 months into it, so we have not 
yet----
    Senator Lincoln. I know your study comes out in August, 
but----
    Ms. Neely. It does, and we have not completed the school 
year yet, and it is the first that would apply to the 
guidelines. But we are making progress. As I said, we fully 
expect the first report will show a significant decline in the 
sale of full-calorie soft drinks in schools, and it will also 
speak to the contracts that have been changed.
    So we think we are making progress. We are starting to 
assemble the data now, and as I said, we will personally 
deliver the report to all of you so that you can see we are 
doing what we said we would do.
    Senator Lincoln. Good. We appreciate that.
    Dr. Brownell, there are some researchers from Ohio State 
University and Indiana University that released a study 
indicating that children are more likely to gain weight during 
the summer months as opposed to during the school year. I do 
not know. That goes counter to everything. I always keep 
thinking I will try to lose my weight during Lent, but, you 
know, summer is coming and I am going to--it is a better time 
to lose weight. But apparently that is not the case for 
children. They gain weight during the summer months as opposed 
to during the school year due to inactivity and improper 
snacking.
    I am just wondering if you are familiar with that study. 
Are there any comments you might have on its findings as they 
related to what we are talking about today?
    Mr. Brownell. The results from that study seem a bit 
counter-intuitive at first glance, but I think you are right. 
If you think about what happens to children in the summer where 
their structured physical activity from organized sports and 
other things in the school declines, and also, my guess--
although I do not have data handy on this--is that their amount 
of time in front of the television increases and other screen 
activities, like computer games and Internet websites and 
things like that. And one could expect all those things to 
increase food intake and to decrease physical activity.
    Senator Lincoln. You also discussed the views of economists 
and public health experts on the importance of creating 
conditions where actions that enhance health and well-being 
become the default response, kind of. Maybe you might want to 
discuss your views a little bit more--you have already touched 
on some of it--on the argument that it may be useful, 
particularly for young adults, to learn to make healthy 
choices. I just think that is so critically important that we 
engage our children. My boys cooked dinner last night, which 
was quite interesting. But it was a part of me trying to help 
them understand. I laid out all the foods before I left. I made 
sure they knew the recipe was on the counter. They had a 
wonderful time, and they very much understood a lot of the 
preparation and what they were putting into their dinner. These 
types of choices, as well as the choices they make in 
selections, are important as they reach the real world.
    Mr. Brownell. I think your focus on parents is absolutely a 
good idea, and the question becomes how can we best support 
parents. When I give talks these days, I will start off by 
asking the audience if they can list the National Dietary 
Guidelines or even name the two Government agencies that 
establish them. And even rooms full of dieticians cannot do 
that.
    And then I give people a little quiz, and I ask them to 
tell me which food products are associated with the following 
slogans, and I will say things like, ``Break me off a piece of 
that...''? You know, Kit Kat bar. Or ``I go cuckoo for...''? 
Cocoa Puffs. And nearly 100 percent of the audience can nail 
those things.
    Now, parents are competing with that, and parents can try 
their best and do their best, and I think we should support 
them in every way possible, and that includes looking at the 
marketing picture, looking at what is happening in schools. The 
schools can do programs to help educate parents themselves. All 
these things need to be done together in order to have an 
impact.
    But anything that can possibly be done to support parents, 
as you are doing with your own children, to teach them good 
rules about food and healthy eating I think is absolutely 
indicated.
    Senator Lincoln. Yes?
    Ms. Hennrich. I have one thing as a parent. When my 
children were young, it was the age of recycling. And I am the 
first to admit, I was throwing cans and cardboard in the 
garbage can. And my kids came home from school and said, ``Mom, 
you cannot do that.'' And I went, ``Why not?'' ``Well, because 
you need to recycle this.'' I was, like, ``Oh, all right.'' 
And, I mean, I am out in healthy Oregon, you know, so I am 
supposed to be--but we did not really know that. As parents, 
somewhere, you know, that had escaped me while I was doing 
whatever I was doing being a parent. And I think there is a 
corollary here, that when the kids learn about fruits and 
vegetables, they eat things they have never eaten before, and 
then they are at the grocery store. I hear stories over and 
over of kids saying to their parents, ``Mom, we had that at 
school. We should buy some of that. We should have some of 
that.''
    So I think sometimes we kind of have this thing, well, 
parents, we are supposed to be all knowledgeable, teaching our 
kids everything that is good for them. Yet sometimes, you know, 
the best of us kind of miss a little piece here or do not have 
that. So I think it is reciprocal.
    And so I think that if the environment in school does not 
undermine what you are trying to do as a parent, and, in fact, 
supports that, and for the kids who do not have the parents who 
are necessarily thinking about doing that, if it just kind of--
--
    Senator Lincoln. Or do not have time.
    Ms. Hennrich. Right.
    Senator Lincoln. They are working three jobs, or they do 
not have the time to do that.
    Ms. Hennrich. Exactly. Exactly. And so, therefore, is the 
default, as Dr. Brownell says, that they kind of just learn 
this is what we are supposed to be doing and eating, it is the 
modeling that is there. And so it can do nothing but be a win-
win for parents and children.
    Senator Lincoln. Mr. Chairman, can I just reinforce another 
thing that Ms. Thornton said, and that is, engaging the 
community in these things. I know we were supposed to, as 
Senator Chambliss in the appropriations, be the next State or 
one of those five or six next States for the fresh fruits and 
vegetables, and because of the CR we did not. We were so 
excited about that, and we had already engaged our fresh fruits 
and our specialty crop growers, our farmers' markets and others 
to be engaged with the school, not only to provide those 
products but to come in and talk to the children about how 
great it is to be a small family farmer of specialty products. 
And we also had schools where they brought parents into the 
schools and engaging with the local community folks, different 
types of things like fly fishing and--I mean, a whole host of 
things that just brings parents into the schools and engages 
them in the decisionmaking and being a part of the child's 
life. And it leads to all of those other things which are 
healthy choices and that are important. So I appreciate Ms. 
Thornton bringing in the rest of the community because that is 
important, too.
    Thank you, Mr. Chairman.
    Chairman Harkin. Thank you very much, Senator Lincoln, for 
your very valuable contribution, especially you and Senator 
Klobuchar, who have kids in school. You can add a lot to this 
process about what we should do.
    I mentioned the letter that we got from the American Heart 
Association. I would ask that it be included in the record, and 
also your counsel, Marshall Matz, a long-time friend of this 
Committee, had given us the series of letters, Ms. Thornton, 
that you mentioned about this and about asking Congress to 
establish a uniform national nutrition standard, and I would 
ask that all these be made a part of the record also.
    [The following information can be found on page 100 in the 
appendix.]
    Please, what happens when these other ones out there, who 
are not a part of this process as well, they get out, we will 
put more of ours in. So there is nothing controlling their--
what do you do about the snack foods, the junk food kind of 
stuff that is coming in?
    Ms. Neely. Well, just for the record, I would also say the 
other signatory was Cadbury Schweppes, so there is----
    Chairman Harkin. Oh, Cadbury Schweppes, OK. That is another 
one, yes.
    Ms. Neely.--Coke, Pepsi, and Cadbury Schweppes, and a host 
of other brands, but those were the three signatories.
    Obviously, I am more intimately familiar with the beverage 
Memorandum of Understanding, and ours was for--it was our 
entire board of directors that signed onto it, and so we 
represent not quite 100 percent of the industry but close to 
it.
    On the snack food side, again, they followed the same sort 
of conceptual model in that it is all about calories, and the 
major trademarks that committed to that do represent a healthy 
share of the market, and their agreement is all around calories 
and limiting calories.
    So I think it is a good start, and I know that----
    Chairman Harkin. But without national standards--I mean, 
assuming that the voluntary guidelines are fine as far as they 
go, but without national standards, I mean, even you have to 
admit that those who are not signatory to this, the hundreds of 
other snack food companies that are out there in different 
States, some of these are just local businesses and stuff like 
that. They cover one or two States, three States, something 
like that. They are not as big as Frito-Lay, for example, but 
they are out there. They are still able to then, under these 
guidelines, continue to market their foods in the schools. Is 
that not right?
    Ms. Neely. Well, I again will speak on behalf of beverage. 
We have a national policy. We agree there should be a national 
approach on this particular issue. We would certainly talk 
about going further. We just, as I said, want there to be some 
reflection that we are a year into implementing a set of 
standards really that we think are the right approach and, you 
know, that is what we want to see promulgated across the 
country.
    So I will not duck the question. I will just say I cannot 
speak on behalf of snack food, but I can speak on behalf of 
beverage, that we want to see our policy promulgated across the 
country.
    Chairman Harkin. I understand that. I am, I guess, trying 
to make the point that--my problem with the voluntary--I do not 
have a problem with it as such. It is great. But it is the 
implementation of it. And since nothing happens to a school 
that does not--or a school district that does not abide by that 
and nothing happens to a company that is not a signatory to 
this to go ahead and keep marketing this junk food to kids, 
then it seems to me while the effort might be marginally 
successful and it might do some good sometimes, I do not know 
that it really kind of goes the distance in terms of cutting 
down on these junk foods.
    Again, I do not mean to belabor that point, but it just 
seems to me that is the problem with not having the national 
standards in there. And I am hopeful that these groups that 
have done so well--and, again, I am very complimentary of what 
you have done. This is a great step forward. I just hope that 
all of you will work with us as the Institute of Medicine study 
comes out. I do not know what it is going to say. We asked the 
experts to do it. They have no monetary involvement with 
companies here and there. We thought the National Academy of 
Sciences would be the best one to do the study. And I hope that 
when they come out we will take a look at that and think about 
those standards and think about how we implement that and get 
the Secretary of Agriculture then to implement these standards 
all over the school, not just in the lunchrooms. And I hope 
that this association, the Alliance for a Healthier Generation, 
would be supportive of that effort.
    Ms. Neely. Senator, I can assure you that we are very 
supportive of seeing this implemented all across the school--
from the beverage standpoint, which is what I can speak to--and 
we will be happy to work with you to that end.
    Chairman Harkin. I appreciate that.
    Let me just get to one other Internet here. In 2004, Dr. 
Brownell, you know that we put into our child nutrition 
reauthorization a provision that stated that every school in 
America had to come up with a school wellness policy by last 
July. We did not say what it had to be. We just said get the 
process going, start talking about it locally, thinking about 
what a school wellness policy would be.
    Now, again, we are going to be looking at those. As I said, 
a lot of schools just came in this year. So we really do not 
know a lot about it, but I want to take a look at what they 
have done locally. And I am just going to ask, Dr. Brownell, if 
you have any preliminary analysis of the guidelines, how they 
are being formulated, how they are being implemented. Do you 
have any idea at all preliminary what is happening to these?
    Mr. Brownell. Well, my colleague at Yale, Marlene Schwartz, 
is undertaking a major study of the implementation of wellness 
policies in Connecticut. What she has found thus far is that 
there is great variability in the degree to which schools are 
taking this seriously. Some are taking them very seriously and 
have very progressive policies. Others do the bare minimum that 
is provided to them from the outside as a template and then put 
it in a drawer afterwards, and there does not seem to be much 
follow-through. But it is a little bit too early to know how 
they will play out over the years.
    I think the fact that the wellness policies are being 
discussed is a very positive move forward, because just even 
discussion is a good thing, and that will get people thinking 
about it. Some national standard that would support a good 
wellness policy I think would be very helpful because, 
otherwise, we will get spotty compliance and irregular uptake 
of what would be good nutrition values across school systems.
    So that is why I think the national policy is so important, 
and the variability that we have seen so far would suggest just 
that.
    Chairman Harkin. Does anybody else here have any thoughts 
on that?
    Ms. Hennrich. Senator Harkin, in Oregon, our organization 
did get a copy of all the policies. We have 198 school 
districts in Oregon, and 189 of those participate in the 
National School Meals Program. So those are the school 
districts that should turn in policies.
    We got a copy from the Oregon Department of Education of 
each of those policies that were turned in this past September. 
There were 174. So out of 189, there were 15 that did not turn 
anything in. And there is really no piece in this law to say 
you have got to turn them in or else. So those 15 are just kind 
of hanging out there.
    But the 174 that were turned in, actually we have done some 
initial analysis of them, and this is where I talked about that 
in only 20 percent of them, a little less than 20 percent, did 
they mention anything about foods sold outside of the National 
School Lunch Program. So they did not say--like here is one, 
Ashland School District, Jackson County, they did say there 
would be a minimum of 50 percent fruit juice, low-fat and fat-
free milk, and soy milk. That is what they said in terms of 
anything that is sold outside of the National School Lunch 
Program. Bandon School District in Coos County said ``limits 
the amount of FMNV''--with all of the problems that we know the 
definition of FMNV has--``sold in vending machines.''
    So even the ones that did something did pretty minimal when 
it came to anything outside of the School Lunch Program, and 
this is where I was interested in the study that had been 
nationally done on the 100 largest school districts, and they 
found 20 percent of those policies said something about the 
food sold outside National School Lunch. So, you know, and we 
are finding, too, it is very variable, and when we look at it 
by the poorest school districts, what we find is we really 
believe it is a matter of social justice, that those school 
districts that do not have parent activists, do not have school 
leaders that have time, they have got so many other things on 
their plates, that if you do not have some kind of real outside 
push on this, we are finding that the poorer districts really 
had very minimal policies. Mostly they pulled down--the School 
Board Association in Oregon did kind of a template on the 
website, and they pulled it down, inserted the name of their 
school district, and some--this is very sad. Where the Board of 
Education said you could--there were parentheses, and you could 
choose ``daily'' or you could choose ``weekly.'' I mean, you 
were supposed to make a choice. They turned in the policy that 
said ``daily weekly.'' You know, all they did was download it, 
put their district name on it, have a quick whatever, pass it, 
and it went on.
    Chairman Harkin. Yes, our hope when we did this was, again, 
get the process going, get school districts thinking about it, 
and then States, State Departments of Education, then take a 
look at it, and then out of this amalgam of different 
approaches, start looking at those that are really doing good 
things, and then sort of go back to the school districts and 
say, ``We think you ought to do this.''
    Now, we did not have at that time, again, any standards, or 
we did not know--but I think the Institute of Medicine study 
that will come out will help sort of, again, give them ideas 
about what they ought to be doing in terms of establishing 
those kinds of wellness standards. So hopefully this process 
will continue.
    I have taken enough time. I would turn to Senator Lugar for 
the second round.
    Senator Lugar. Thank you very much, Mr. Chairman.
    I was intrigued with your statement, Ms. Thornton, that in 
Salt Lake City as an experiment, they eliminated reduced-price 
lunch and lunch participation--or eliminated the reduced-price 
fee, rather, and lunch participation rose 50 percent, breakfast 
participation 300 percent. It appears that eliminating the 
reduced-price fee has a much greater impact on breakfast but, 
nevertheless, rather dramatic on lunch.
    You say in your testimony, ``We are not here today urging 
the Congress to expand the free meal program and eliminate the 
reduced-price program. We are just urging Congress to finally 
fund the reduced-price pilot program to determine once and for 
all whether it is the fee as opposed to some other variable 
that might be keeping those low-income children from the 
program.''
    I would say common sense has already indicated, given that 
dramatic a change in Salt Lake City, that the answer would be 
yes. What I am really curious about is whether your association 
or anybody else has done research on what it would cost if, in 
fact, despite your admonition, we proceeded to think about 
eliminating the fee. And I raise that because it appears to me 
this is fairly critical. We have been talking about the 
standards for the meals, but if a significant number of 
children are not even getting the meals to begin with, that is 
academic. That is sort of a second problem.
    Ms. Thornton. Right. I think that was one school district. 
I think there are other issues that are barriers to breakfast 
that districts are slowly overcoming like breakfast in the 
classroom, because in most school districts breakfast is not a 
part of the school day, and in most cases lunch is. So that 
certainly is one component, that cost component.
    Obviously, if the same kids ate breakfast as ate lunch, you 
know, that would be fairly easy to calculate that 30 cents per 
meal times however many students that would be.
    I think we will still have some component of children that 
parents choose to feed them at home, which is fine. Our concern 
is that they have had food.
    Senator Lugar. Well, that is all of our concern.
    Ms. Thornton. Yes.
    Senator Lugar. My concern started when I went on the school 
board in Indianapolis in 1964. The first Federal aid 
Indianapolis ever accepted was for a breakfast program for so-
called latch-key children. The problem in our country is there 
are many latch-key children, or their equivalent, and we are 
now looking at it in a different Committee with No Child Left 
Behind. The fact is that the amount of progress by children who 
are suffering in this way is a very tough issue, and school 
boards are very unhappy that there are so many children not 
meeting the standards. There are lots of reasons why they might 
not, given teacher quality, availability of lots of things. But 
the health issues, the availability of food, basically--then I 
sort of pick it up from there, that we are not measuring in No 
Child Left Behind the same children year by year. The schools 
that I am looking at in the inner city of Indianapolis have a 
50-percent turnover.
    Now, if we do not have some type of at least statewide 
standard, it is very likely that because they are wards of 
relatives that carry them to the next district the next year, 
they are out of luck. We are almost back to the same problem 
basically with the National School Lunch Program. This is why I 
would like to know what the cost is going to be. You are 
advising us $23 million for the pilot project.
    Ms. Thornton. Right.
    Senator Lugar. I think that may be useful, but I think 
maybe my prejudice is why, that that has already been 
established. And the question is: What kind of money in the 
Food Stamp Program, which you have cited, which we are going to 
be taking up in the farm bill and reauthorization, what kind of 
money in the food stamp bill needs to be devoted to eliminate 
this barrier?
    Ms. Thornton. I cannot give you that information right off, 
but I will certainly see that our association works with USDA 
and gets you that information.
    I would like to say, though, it is amazing to many of us in 
my position that come test time, we will have schools that will 
pay for every child to have a breakfast because they know it 
makes a difference. And we kind of sit back and laugh and say, 
you know, they can only give you back what they know. It is not 
going to help all those days that they have not had breakfast.
    Senator Lugar. Well, this is known as ``gaming the 
system,'' and anybody involved in No Child Left Behind is a 
student of all the ways that occurs.
    Ms. Thornton. Yes.
    Senator Lugar. But this is certainly an ingenious way, to 
feed children on the day of the test so that at least they have 
some pep to get a few more points.
    Ms. Thornton. Right.
    Senator Lugar. But that really does not suffice, as you 
know.
    Ms. Thornton. Right.
    Senator Lugar. And that is why I ask this question, 
seriously, and you are going to provide a serious answer.
    Ms. Thornton. Yes, we will.
    Senator Lugar. Thank you very much.
    Chairman Harkin. Thank you, Senator Lugar.
    Senator Casey?
    Senator Casey. Yes, thank you. One topic that I did not 
touch on in my first round of questions was on the WIC Program, 
Women, Infants, and Children's Program. And I will assert it 
more than ask a question, but it is my belief that the cuts 
that are proposed to WIC, especially starting in 2009 and going 
forward, are obviously detrimental to the children and families 
affected, but I think harmful for our economy, and I am going 
to fight aggressively and mightily and resolutely against those 
cuts.
    I do not know if anyone on the panel has any direct 
experience with WIC and the impact of the program to make 
comment. And I just have one other question.
    Ms. Hennrich. Yes, I actually worked for Multnomah County 
Health Department for many years and was the manager of the WIC 
Program in Portland, so I think now it fairly intimately. And 
it is absolutely essential that we get kids started out early, 
that we--Oregon has the highest sustained breast-feeding rate 
in the Nation; 26 percent of all babies in Oregon are breast-
fed until 6 months. And our WIC Program pushes that very hard. 
I am kind of amazed when we say it is the best. I think it 
ought to be 75 percent, not 25 percent. But we are the leaders 
in it. But feeding mothers well during their pregnancy, we have 
a program so that it is way too small, but some State money has 
been put in so that women can get vouchers for farmers' markets 
and buy fresh fruits and vegetables that are locally produced 
in the summer.
    Absolutely, WIC is essential. It is that first building 
block prenatally, and then as the children grow until they come 
to school. So anything you can do to--and also to get the WIC 
food package changed to include fruits and vegetables is high 
on our list.
    Senator Casey. And, again, you are right, we could have 
more--we could increase our commodity purchases for WIC.
    Ms. Hennrich. Yes.
    Senator Casey. I guess my problem with the way that things 
work in Washington is often when they propose budget cuts to 
programs like WIC which have a disproportional and devastating 
impact on people, the budget-meisters did no analysis. It is 
just, Where can we find money to pay for tax cuts? And they cut 
indiscriminately, with no analysis about waste, fraud, and 
abuse, no analysis about inefficiency. They just bring down the 
meat axe and cut. But that is the way they do it in Washington, 
but we are going to fight against it.
    One quick point. On the question of how we impact behavior, 
whether by children or adults, and especially adults who happen 
to be parents, it is my belief--and I think there is a lot of 
evidence to show this--that unfortunately the cold reality in 
terms of how we impact how people think, I think, Mr. Brownell, 
you mentioned the impact of surveying a group of even experts, 
and they can recite the TV ads. Whether it is children's health 
insurance programs, whether it is nutrition, whatever it is in 
terms of getting people to focus on a problem, to be aware of 
it, to take steps to improve--or to change behavior, so much of 
this revolves around television and the advertising. I know it 
works in the beverage context. It has an impact on all of our 
lives. We are all subjected to that, and we are all prone to 
believe television ads and be impacted by them.
    My question is this: In this context of changing behavior, 
in this context of making parents and school officials and, 
obviously, children more aware of these choices they make about 
nutrition, is there any initiative that you are aware of--
public, private, nonprofit, whatever--across the country, any 
initiative that focuses on paid television ads to impact 
behavior? Because if we are not doing that, all the laws and 
regulations in the world are not going to be enough. And I just 
want to know if anyone has any information about any initiative 
to pay for ads to impact this positively.
    Ms. Neely. Well, Senator, I would certainly encourage you 
to look at what the Advertising Council, which is the nonprofit 
arm of the advertising industry, is doing. They have a major 
campaign in that regard of communications of all sorts on this 
issue. The Alliance for a Healthier Generation, one of their 
partners is Nickelodeon, and as a parent with children who do 
like Nickelodeon, I can attest that they do an excellent job 
with their paid spaces to communicate healthy messages about 
this is the most important meal of the day, that kind of thing. 
And I will hear my children playing back what they saw on those 
commercials on Nickelodeon, so I know that they are very 
effective. So there is some good work being done out there by 
professionals that is supported by our companies and others.
    Mr. Brownell. One quick comment. There are some positive 
changes, and the challenge by the Ad Council I think is one of 
them. But they are a drop against the tidal wave, and they are 
simply not going to have an impact given the massive, massive 
amount of advertising for unhealthy foods.
    I also would like to say that the amount of exposure of 
children to food marketing in general is increasing at the same 
time that television exposure to food marketing is going down. 
It is because other things have come in to take its place. So 
food industry websites that have engaging games for children 
would be an example. It will soon be the case that food 
advertisements will be beamed over cell phones to children 
specific to their location because of the GPS chips that are 
built into the modern cell phones. And there are a number of 
viral--in fact, I mentioned in my testimony, in my written 
testimony, that the industry uses the words ``viral 
marketing,'' ``stealth marketing,'' and ``guerilla marketing'' 
to describe the ways they are going after children.
    Senator Casey. Anybody else?
    Ms. Hennrich. I guess in the Northwest, Kaiser Permanente 
has done an ad campaign called ``Thrive,'' and they have had 
some great ads on, you know, bicycling to work, on eating 
antioxidants and fruits and vegetables. But it is a drop in the 
bucket compared to what is happening on the other side.
    Senator Casey. Thank you, Mr. Chairman.
    Chairman Harkin. Thank you, Senator Casey.
    Senator Klobuchar?
    Senator Klobuchar. Thank you. I just wanted to follow up 
some of Senator Lugar's questions about the breakfasts. In 
Minnesota, actually, the State legislature eliminated the 
reduced-price category for school breakfasts, and they made 
school breakfast free to all students who are eligible for free 
and reduced-price meals. And so I saw this in the school where 
my--basically the whole school would go down and have breakfast 
in the morning, and I was horrified to hear that story about 
just on the day of a test.
    I wondered if any of you knew how many other States had 
done this, where they have eliminated, as Senator Lugar was 
talking about, the free and reduced--eliminated the reduced-
price breakfast and have replaced it with the free breakfast 
for poorer schools.
    Ms. Hennrich. Oregon has not.
    Ms. Thornton. I am not aware of other States. That is not 
to say there is not any. I know there are some individual 
districts. My district, for instance, our local board pays for 
breakfast for all elementary school students. But I think these 
are isolated instances and not really the rule nationwide.
    Senator Klobuchar. OK. The other thing is I was talking 
before--I was listening to Senator Lincoln, and I want to make 
clear that I think education plays a major role in this. My 
daughter actually last week came and told me that she said that 
Daddy has been saying pack my lunch, and he said that the fruit 
roll-up was a fruit. ``I do not think that is right, do you, 
Mom?'' she said.
    [Laughter.]
    Senator Klobuchar. ``I think that is a dessert,'' she said.
    So, in any case, I do think that it plays a major role, but 
I also, again, want to go back to the fact that when there are 
just these endless possibilities of food that is not good for 
kids, I do not think we are going to get to where we want to 
be. And I wondered if you--if there are any statistics--I guess 
I would ask you, Mr. Brownell--of schools where we have put 
that standard in place, that is in force, where we have seen 
not just, oh, yes, they are eating healthy food, but we have 
seen a decrease in obesity. Are there examples of that from 
around the country?
    Mr. Brownell. There are some, but we are early enough in 
the research that we have mainly anecdotal reports at the 
moment. But I think in the next several years we will see an 
awful lot more research.
    What is available--some of which has come from the 
University of Minnesota, by the way--has been quite positive.
    Ms. Hennrich. One study that we had--Amanda Purcell from 
California Center for Public Health Advocacy came up and spoke 
to our legislature last week because we are working on trying 
to get State standards in Oregon, and she referenced a study 
out of UCLA where L.A. Unified went ahead and implemented the 
basic standards that we are talking about in Oregon and that 
are now California law. They did them before they became 
California law. And the study actually did a control, looked at 
the schools on L.A. Unified that implemented early versus 
others that did not. And I cannot remember the researcher at 
UCLA, but they actually found a year later smaller waist 
circumferences and some other indicators. And so I have asked 
her to get me that study because it does seem like one that 
actually really looked at just changing what is being sold in 
the hallways and in the a la carte and in the school stores, 
and that it did really make a difference. So I think it is 
beginning to come out.
    Ms. Thornton. I think you will see, too, there are any 
number of school districts that food sold within the cafeteria 
has changed dramatically from, you know, obviously eliminating 
deep fat fryers, changing tremendously the kinds of foods. If a 
la carte is sold, they would meet the same standards that USDA 
would be recommending. It may be a la carte because it is a 
higher, maybe a whole muscle meat product, a more expensive 
food, but still, we sell apples a la carte. They would be on 
the line, maybe bananas, like a tossed salad that a child may 
buy just as an individual.
    So I think you are seeing kinds of things sold that are 
changing tremendously, and I think you are going to see this 
continue to change.
    Senator Klobuchar. Thank you.
    Chairman Harkin. Thank you, Senator Klobuchar.
    I just have a couple things I just want to close up on 
here. Ms. Nece, you mentioned in your statement about 
infrastructure needs for the Fruit and Vegetable Program. Could 
you elaborate a little bit? What infrastructure needs?
    Ms. Nece. Sure. From my perspective as a food service 
director, what needs to transpire with many schools across the 
Nation as we continue to increase fruit and vegetable 
consumption, particularly fresh, we run into just storage 
facilities to be able to handle the volume of fresh fruits and 
produce that come in at any given time. So it is dealing with 
whether it is equipment or the additional cost of purchasing, 
not every school district in the Nation has easy access to 
fresh fruits and vegetables.
    Chairman Harkin. Has what?
    Ms. Nece. Does not have easy access to fresh fruits that 
are financially--or that are reasonable in cost.
    Chairman Harkin. I see.
    Ms. Nece. And so as schools continue to increase their 
options making fruits and vegetables available, it is looking 
at what are the needs that need to support that additional 
offering of fruits and vegetables.
    Chairman Harkin. Storage, basically.
    Ms. Nece. Storage, whether it is equipment. For us in the 
Fruit and Vegetable Pilot, we actually had to go to daily 
delivery from a produce supplier to be able to manage the fresh 
produce on a daily basis.
    Chairman Harkin. The refrigeration and things that you have 
in the school lunchroom, that cannot handle that?
    Ms. Nece. Well, part of what we were doing is we were also 
increasing fruits and vegetables, fresh fruits and vegetables 
in our school meals programs. So you have fresh fruits and 
vegetables coming in for breakfast, for lunch, for the pilot 
programs during that entire timeframe. So you increase what 
needs to have refrigerated storage.
    Chairman Harkin. I would also like to look at what we can 
do in the farm bill on this program to encourage somehow more 
local--I think it was Senator Chambliss or someone who brought 
that up about more local growing and consumption of local 
fruits and vegetables and how we can do that. And any thoughts 
any of you have on that I would really appreciate that, unless 
you have something right now that you have on your mind. But if 
you do not----
    Ms. Hennrich. Well, I know Portland Public Schools is 
working very hard with local farmers in having a Harvest of the 
Month, and they did winter squash the other day in all the 
schools and actually got a lot of that product donated by the 
squash growers in Oregon.
    But one of the things that I do not know the specifics, and 
I think that you can speak much more to them, is some of--what 
I have heard, at least, is that there are some of the 
procurement rules that make it a little difficult to try to 
advantage local producers of fruits and vegetables from Oregon. 
And I am not adequately knowledgeable to speak of that, but I 
have heard Kristy Obbink, the Portland Public School Director, 
talk about trying to work within some guidelines that make it 
more difficult sometimes than she thinks it should be.
    Ms. Thornton. Right, and those----
    Chairman Harkin. Dr. Brownell, do you have some--oh, I am 
sorry.
    Ms. Thornton. I am sorry. Go on.
    Mr. Brownell. Well, I also agree it is very important. The 
American food system has changed in such a way that people have 
a distant psychological and physical relationship with food. It 
tends to be shipped long distances. It has so many ingredients 
and additives and preservatives that you hardly know what it is 
by the time you eat it. And so anything that can shrink the 
psychological and physical distance I think would be quite 
helpful, and local foods would go a long way in that direction.
    Ms. Thornton. We are working very closely with the Farm to 
School Program in many, many of our States. We do have some 
issues that we are working to overcome. One in Kentucky, so 
many of the farmers are fairly small farmers, and to get the 
quantity of foods we need is sometimes an issue.
    Also, if we have something on the menu, we depend on that 
product being there that day. Maybe we had a lot of rain or had 
cool weather or whatever and that product is not there. We have 
not contracted with the outside vendor to get it, so I have 
16,000 kids sitting there with nothing.
    So we are slowly working, though, with them, and we 
certainly, I think all of us, want to continue to do that to 
support our local farmers.
    Chairman Harkin. I am just, again, looking for suggestions 
or advice how we might do that. One of the things that you just 
kind of hit on, and, that is, you have all these small farmers, 
but there is no kind of a central place where they can send it 
where it is processed, packaged, and shipped on to you.
    Ms. Thornton. Right.
    Chairman Harkin. It is that kind of thing, and so we are 
looking at something like that, either through the cooperative 
co-ops or something. I do not know how we do it, but to somehow 
promote that kind of concept.
    Ms. Thornton. And then in our part of the country, you 
know, obviously we do not plant until Derby Day, so we do not 
get food that ripens until in the summer. So we use a lot of 
that during the summer months, but to actually use the fresh 
product--maybe a little bit in August in schools that start 
early, and we can do a little bit with apples. But the season 
is not when we are in school.
    Chairman Harkin. The same way where I am from, too.
    Ms. Thornton. Yes.
    Chairman Harkin. The season is different.
    [Pause.]
    Chairman Harkin. Derek Miller, who knows everything about 
all this stuff, just gave me a note, and Derek says that OMB 
regulations have a prohibition on geographical preferences in 
procurement. I asked him what we could do about it, and he 
said, ``Well, you can override it.'' Well, we will have to 
think about that.
    [Laughter.]
    Chairman Harkin. One last thing I wanted to cover with Ms. 
Neely and Dr. Brownell. Ms. Neely, you talked about a public 
opinion survey. You said, ``A recent nationwide survey...When 
asked to choose between the School Beverage Guidelines and a 
policy...parents supported our guidelines...when asked if they 
preferred our guidelines or a complete vending ban...they chose 
the guidelines by a margin of 82 percent to 14 percent.''
    Could you make that available to us? I have not been able 
to get this survey. Who did the survey?
    Ms. Neely. I would be happy to. It was done by Public 
Opinion Strategies, the pollster for NBC and the Wall Street 
Journal.
    Chairman Harkin. Yes. Could you make that available to the 
Committee?
    Ms. Neely. Certainly.
    Chairman Harkin. In its raw form, so we know the questions. 
And, again, I have the same question for you, Mr. Brownell. You 
said trends in public opinion, which seem to kind of go the 
other way, and I would like to know who did this.
    Mr. Brownell. We will send the data on who did the various 
numbers in that sheet because they come from different polls 
over time.
    Chairman Harkin. I would like to see it.
    Mr. Brownell. Also, when you do polls, how you ask 
questions matters a lot.
    Chairman Harkin. That is why I want to see the raw data.
    Mr. Brownell. You should see the way the questions----
    Ms. Neely. But I would say just from the soft drink 
questions specifically, probably we would agree with your data. 
What we heard from parents and saw in market research, which 
one of the reasons the industry wanted to move forward with 
this is that they want full-calorie regular soft drinks out of 
the schools, and we agree with parents.
    So I do not think our data is inconsistent with that. What 
our policy says is no-calorie soft drinks in the schools, and 
parents, again, seemed to embrace this sort of calorie 
construct. So whether it is sports drinks, soft drinks, 
whatever, that they are within a calorie construct that makes 
sense. If it is obesity we are trying to tackle, it is about 
calories, not people's personal likes and dislikes of 
individual products.
    Chairman Harkin. OK. It would just be interesting to take a 
look at that.
    Well, that is all I have for today. I just again thank the 
School Nutrition Association for all of the great work you do, 
all of you who are here for your annual meetings here. I urge 
you to make sure you contact all your Representatives and 
Senators when you are here. You have a lobby day someday. I do 
not know. Is that tomorrow? Oh, it is today. OK, today on the 
Hill. I am sorry I kept you here this long then.
    [Laughter.]
    Chairman Harkin. I want you to get out there and do your 
work and get a hold of your Representatives and Senators and 
let them know that you support national guidelines. Do we have 
a House companion?
    Derek tells me there is going to be a companion bill in the 
House. Perhaps they are going to try to introduce that today, 
Shays and Woolsey. So on the House side, if you can go to the 
House side, really encourage your Representatives to get on 
board this, I think that we could get something done about this 
hopefully this year when we do the farm bill and get it 
through.
    On the Fruit and Vegetable Program, we are going to see 
what we can do about expanding that.
    I think the bottom line really is that we all want what is 
best for our kids. And, you know, leave no child behind, that 
is fine, I am supportive of it. We need to fund it better, 
obviously. But we also need to leave no child behind in terms 
of health, either, and like it or not, schools are now becoming 
a place where kids get most of their nutrition during the day, 
and that is just it. You know, no more do we have kids that eat 
their breakfast at home and maybe even have a healthy meal at 
home at night. So we are looking at our schools to provide 
that. We all want to make sure that the foods and beverages 
that they consume there not only are healthy in and of 
themselves, but that also promote their thinking about this. 
You know, at an early age when they start eating fruits and 
vegetables, they find they like them, they get satisfaction 
from it, and then it carries on later on in life. If kids start 
eating potato chips and drinking soda pop at age 4, well, you 
have set a bad course for the future. But when they start 
eating fresh fruits and vegetables and they get the flavor of 
those if it is fresh, I think it starts establishing habits and 
life patterns for these kids as they grow up.
    Again, I do not want to be alarmist on this or anything 
like that, but, you know, that is why the voluntary guidelines 
are fine, but I have just got to say that we are in almost a 
crisis situation. We have got to do something right away. This 
diabetes thing that is hitting us is just awesome. And when we 
look ahead to the costs to our society downstream of this, boy, 
it is just amazing.
    So we have got to do what we can early on to start 
preventing this and getting kids healthier, and that also means 
exercise in school, too, by the way. I do not want to leave 
that out. As you know, I have my bill in on the Play Day at 
school and to make sure that we, again, within whatever 
confines that we can here, try to encourage schools to provide 
physical exercise for all those kids at least once a day.
    I remember I was in Japan one time, and I went out to a 
factory. About 9:30 in the morning, the whistle blew and 
everybody stopped working, and they all stood by their desks 
and their workstations and did exercises for 5 minutes. I was 
told by my guy who was there taking me through that, you know, 
what they had found was that mid-morning people get a little 
lethargic, and that is when mistakes are made. So get the blood 
moving again, get them exercising. And then I was told that 
they do that in schools in Japan. I do not know that for a 
fact, but I was told that kids in school actually do that in 
school.
    Well, that is why we need to promote both ends, the 
wellness in terms of what they eat during the day, what is 
available to them to eat during the day, and then to get them 
to do exercise, get kids out playing. To me it is just 
abominable that we are building elementary schools in America 
now without playgrounds. Without playgrounds. One principal is 
quoted as saying, ``Well, my job is to educate kids, not to 
build monkey bars.'' A cute saying, but it misses the mark 
completely, that these kids do need to have exercise.
    Well, that is enough of that. I just thank you all very 
much. Thank you for being here. Thanks for your great 
testimony. Thanks for all the good work that you do in getting 
our kids a good, healthy start in life. And we will try to do 
our part in the farm bill with your advice and your input, all 
of you, on what we ought to be doing.
    Thank you very much.
    [Applause.]
    [Whereupon, at 12:03 p.m., the Committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                             March 6, 2007



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 35041.001

[GRAPHIC] [TIFF OMITTED] 35041.002

[GRAPHIC] [TIFF OMITTED] 35041.003

[GRAPHIC] [TIFF OMITTED] 35041.004

[GRAPHIC] [TIFF OMITTED] 35041.005

[GRAPHIC] [TIFF OMITTED] 35041.006

[GRAPHIC] [TIFF OMITTED] 35041.007

[GRAPHIC] [TIFF OMITTED] 35041.008

[GRAPHIC] [TIFF OMITTED] 35041.009

[GRAPHIC] [TIFF OMITTED] 35041.010

[GRAPHIC] [TIFF OMITTED] 35041.011

[GRAPHIC] [TIFF OMITTED] 35041.012

[GRAPHIC] [TIFF OMITTED] 35041.013

[GRAPHIC] [TIFF OMITTED] 35041.014

[GRAPHIC] [TIFF OMITTED] 35041.015

[GRAPHIC] [TIFF OMITTED] 35041.016

[GRAPHIC] [TIFF OMITTED] 35041.017

[GRAPHIC] [TIFF OMITTED] 35041.018

[GRAPHIC] [TIFF OMITTED] 35041.019

[GRAPHIC] [TIFF OMITTED] 35041.020

[GRAPHIC] [TIFF OMITTED] 35041.021

[GRAPHIC] [TIFF OMITTED] 35041.022

[GRAPHIC] [TIFF OMITTED] 35041.023

[GRAPHIC] [TIFF OMITTED] 35041.024

[GRAPHIC] [TIFF OMITTED] 35041.025

[GRAPHIC] [TIFF OMITTED] 35041.026

[GRAPHIC] [TIFF OMITTED] 35041.027

[GRAPHIC] [TIFF OMITTED] 35041.028

[GRAPHIC] [TIFF OMITTED] 35041.029

[GRAPHIC] [TIFF OMITTED] 35041.030

[GRAPHIC] [TIFF OMITTED] 35041.031

[GRAPHIC] [TIFF OMITTED] 35041.032

[GRAPHIC] [TIFF OMITTED] 35041.033

[GRAPHIC] [TIFF OMITTED] 35041.034

[GRAPHIC] [TIFF OMITTED] 35041.035

[GRAPHIC] [TIFF OMITTED] 35041.036

[GRAPHIC] [TIFF OMITTED] 35041.037

[GRAPHIC] [TIFF OMITTED] 35041.038

[GRAPHIC] [TIFF OMITTED] 35041.039

[GRAPHIC] [TIFF OMITTED] 35041.040

[GRAPHIC] [TIFF OMITTED] 35041.041

[GRAPHIC] [TIFF OMITTED] 35041.042

[GRAPHIC] [TIFF OMITTED] 35041.043

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 6, 2007



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 35041.044

[GRAPHIC] [TIFF OMITTED] 35041.045

[GRAPHIC] [TIFF OMITTED] 35041.046

[GRAPHIC] [TIFF OMITTED] 35041.047

[GRAPHIC] [TIFF OMITTED] 35041.048

[GRAPHIC] [TIFF OMITTED] 35041.049

[GRAPHIC] [TIFF OMITTED] 35041.050

[GRAPHIC] [TIFF OMITTED] 35041.051

[GRAPHIC] [TIFF OMITTED] 35041.052

[GRAPHIC] [TIFF OMITTED] 35041.053

[GRAPHIC] [TIFF OMITTED] 35041.054

[GRAPHIC] [TIFF OMITTED] 35041.055

[GRAPHIC] [TIFF OMITTED] 35041.056

[GRAPHIC] [TIFF OMITTED] 35041.057

[GRAPHIC] [TIFF OMITTED] 35041.058

[GRAPHIC] [TIFF OMITTED] 35041.059

[GRAPHIC] [TIFF OMITTED] 35041.060

[GRAPHIC] [TIFF OMITTED] 35041.061

[GRAPHIC] [TIFF OMITTED] 35041.062

[GRAPHIC] [TIFF OMITTED] 35041.063

[GRAPHIC] [TIFF OMITTED] 35041.064

[GRAPHIC] [TIFF OMITTED] 35041.065

[GRAPHIC] [TIFF OMITTED] 35041.066

[GRAPHIC] [TIFF OMITTED] 35041.067

[GRAPHIC] [TIFF OMITTED] 35041.068

[GRAPHIC] [TIFF OMITTED] 35041.069

[GRAPHIC] [TIFF OMITTED] 35041.070

[GRAPHIC] [TIFF OMITTED] 35041.071

[GRAPHIC] [TIFF OMITTED] 35041.072

[GRAPHIC] [TIFF OMITTED] 35041.073

[GRAPHIC] [TIFF OMITTED] 35041.074

[GRAPHIC] [TIFF OMITTED] 35041.075

[GRAPHIC] [TIFF OMITTED] 35041.076

[GRAPHIC] [TIFF OMITTED] 35041.077

                                 <all>

</pre></body></html>
